<html>
<title> - COORDINATION AMONG FEDERAL YOUTH DEVELOPMENT PROGRAMS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
         COORDINATION AMONG FEDERAL YOUTH DEVELOPMENT PROGRAMS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON SELECT EDUCATION

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             July 12, 2005

                               __________

                           Serial No. 109-24

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
22-399                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Howard P. ``Buck'' McKeon,           Major R. Owens, New York
    California                       Donald M. Payne, New Jersey
Michael N. Castle, Delaware          Robert E. Andrews, New Jersey
Sam Johnson, Texas                   Robert C. Scott, Virginia
Mark E. Souder, Indiana              Lynn C. Woolsey, California
Charlie Norwood, Georgia             Ruben Hinojosa, Texas
Vernon J. Ehlers, Michigan           Carolyn McCarthy, New York
Judy Biggert, Illinois               John F. Tierney, Massachusetts
Todd Russell Platts, Pennsylvania    Ron Kind, Wisconsin
Patrick J. Tiberi, Ohio              Dennis J. Kucinich, Ohio
Ric Keller, Florida                  David Wu, Oregon
Tom Osborne, Nebraska                Rush D. Holt, New Jersey
Joe Wilson, South Carolina           Susan A. Davis, California
Jon C. Porter, Nevada                Betty McCollum, Minnesota
John Kline, Minnesota                Danny K. Davis, Illinois
Marilyn N. Musgrave, Colorado        Raul M. Grijalva, Arizona
Bob Inglis, South Carolina           Chris Van Hollen, Maryland
Cathy McMorris, Washington           Tim Ryan, Ohio
Kenny Marchant, Texas                Timothy H. Bishop, New York
Tom Price, Georgia                   John Barrow, Georgia
Luis G. Fortuno, Puerto Rico
Bobby Jindal, Louisiana
Charles W. Boustany, Jr., Louisiana
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York

                    Paula Nowakowski, Staff Director
                Mark Zuckerman, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON SELECT EDUCATION

                   PATRICK J. TIBERI, Ohio, Chairman

Cathy McMorris, Washington Vice      Ruben Hinojosa, Texas
    Chairman                         Danny K. Davis, Illinois
Mark E. Souder, Indiana              Chris Van Hollen, Maryland
Jon C. Porter, Nevada                Tim Ryan, Ohio
Bob Inglis, South Carolina           George Miller, California, ex 
Luis P. Fortuno, Puerto Rico             officio
John A. Boehner, Ohio, ex officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 12, 2005....................................     1

Statement of Members:
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois..........................................     5
    Tiberi, Hon. Patrick J., Chairman, Subcommittee on Select 
      Education, Committee on Education and the Workforce........     1
        Prepared statement of....................................     2
    Osborne, Hon. Tom, a Representative in Congress from the 
      State of Nebraska..........................................     2
        Prepared statement of....................................     4

Statement of Witnesses:
    Moore, Richard G., Criminal and Juvenile Justice, Planning 
      Division, Iowa Department of Human Rights, Des Moines, IA..    22
        Prepared statement of....................................    24
    O'Grady, Dr. Michael J., Assistant Secretary for Planning and 
      Evaluation, U.S. Department of Health and Human Services, 
      Washington, DC.............................................     6
        Prepared statement of....................................     8
    Sallee, Marguerite, President and CEO, America's Promise--The 
      Alliance for Youth, Washington, DC.........................    42
        Prepared statement of....................................    45
    Shubilla, Laura, President, Philadelphia Youth Network, 
      Philadelphia, PA...........................................    27
        Prepared statement of....................................    29
    Steinberg, Dr. Laurence, Distinguished University Professor, 
      Director, MacArthur Foundation Research Network on 
      Adolescent Development and Juvenile Justice, Temple 
      University, Philadelphia, PA...............................    47
        Prepared statement of....................................    49



         COORDINATION AMONG FEDERAL YOUTH DEVELOPMENT PROGRAMS

                              ----------                              


                         Tuesday, July 12, 2005

                     U.S. House of Representatives

                    Subcommittee on Select Education

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:30 a.m., in 
room 2175, Rayburn House Office Building, Hon. Patrick Tiberi 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Tiberi, McMorris, Osborne, Porter, 
Inglis, Fortuno, Davis, and Ryan.
    Staff Present: Kevin Frank, professional staff member; Lucy 
House, legislative assistant; Alexa Marrero, press secretary; 
Krisann Pearce, deputy director of education and human 
resources policy; Whitney Rhoades, professional staff member; 
Deborah Samantar, clerk; Kevin Smith, communications director; 
Denise Forte, legislative associate/education; Ricardo 
Martinez, legislative associate/education; and Joe Novotny, 
legislative assistant/education.
    Chairman Tiberi. A quorum being present, the Subcommittee 
on Select Education of the Committee on Education and the 
Workforce will come to order.
    We are meeting today to hear testimony on the coordination 
among Federal youth development programs.
    Under Committee Rule 12(b), opening statements are limited 
to the Chairman and the Ranking Minority Member of the 
Subcommittee. Therefore, if other Members have statements, they 
may be included in the hearing record.
    With that, I ask unanimous consent that the hearing record 
remain open for 14 days to allow Member statements and other 
materials referenced here during the hearing to be submitted in 
the official hearing record.
    Without objection, so ordered.

STATEMENT OF HON. PATRICK J. TIBERI, CHAIRMAN, SUBCOMMITTEE ON 
   SELECT EDUCATION, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Good morning and welcome. Thank you all for being here 
today.
    I want to thank our witnesses, both panels, for taking time 
to appear before the Subcommittee today on relatively short 
notice, to share your insights and your experience regarding 
issues surrounding Federal youth development programs, and 
offer suggestions as to where this Congress can go to assist 
the efficient and effective operation of these programs.
    I look forward to the testimony from all of you.
    At this time, I would like to recognize my friend and 
colleague, Congressman Tom Osborne, for an opening statement. I 
will yield my time to him. It is a pleasure to have him join us 
on the Select Education Subcommittee today.
    We came to Congress together in 2000, shared space next to 
each other on the fifth floor of the Cannon Building. I have 
great respect for the Coach on many levels, and thank you for 
your involvement in this issue. I yield to you as much time as 
you may consume.
    [The prepared statement of the Honorable Patrick J. Tiberi 
follows:]

 Statement of Hon. Patrick J. Tiberi, Chairman, Subcommittee on Select 
          Education, Committee on Education and the Workforce

    Good morning and welcome. Thank you all for being here today.
    I want to thank our witnesses for taking the time to appear before 
the subcommittee today, on relatively short notice, to share insights 
and experiences regarding issues surrounding federal youth development 
programs, and offer suggestions as to where Congress can assist the 
efficient and effective operation of these programs.
    I look forward to your testimony.
    At this time, I would like to recognize my friend and colleague, 
Coach Tom Osborne. It is my pleasure to have him join us on the Select 
Education Subcommittee today.
    I first had the privilege to work with Coach as part of the same 
freshman class, and as neighbors on the 5th floor of the Cannon House 
Office Building.
    I have a great respect for Coach on many levels and I commend his 
leadership on the topic of our hearing today--coordination among 
federal youth development programs. And hearing no objection, I would 
like to yield my remaining time to Mr. Osborne for a statement.
                                 ______
                                 
    Mr. Osborne. Thank you, Mr. Chairman. I am still on the 
fifth floor and you have moved on to better things, I guess.
    [Laughter.]

  STATEMENT OF HON. TOM OSBORNE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEBRASKA

    Mr. Osborne. I thank you for allowing me to sit in on this 
Committee, and I'm obviously not a Member of the Committee, 
Subcommittee.
    The genesis of today's hearing is the report of the White 
House Task Force on Disadvantaged Youth, which was issued in 
December 2003.
    Among other things, the report said the following: roughly 
one-fourth of U.S. adolescents are at risk of not achieving 
productive adulthood. I think everyone realizes that we have a 
great deal of dysfunction, family dysfunction. We have problems 
with drugs and alcohol. We have violence. We have promiscuity 
issues.
    A great number of young people are not doing very well at 
the present time.
    There are many Federal programs designed to help vulnerable 
young people, roughly 150. That's a rough figure. It is an 
awful lot of them. There is obviously concern on the part of 
the Federal Government to help disadvantaged youth.
    However, there is little rigorous examination of the 
effectiveness of these programs. Few have quantifiable clear 
goals.
    There is considerable overlap and duplication of these 
programs, which is spread over roughly 12 different Federal 
agencies. Many of the programs have evolved into initiatives 
which has strayed far from the intent of the initial 
authorizing legislation.
    In many cases, program managers are prevented from 
communicating with other managers of similar programs by 
statute. They can't legally even coordinate.
    We think this needs to be addressed. The Government 
Accountability Office report of 1997 calls the Federal response 
to youth failure a perfect example of, and I quote, ``mission 
fragmentation.''
    The GAO recommends that programs with similar goals, target 
populations and services be coordinated, consolidated, or 
streamlined, and that's what our proposed legislation attempts 
to do.
    A large number of youth serving groups approached me, 
Congressman Hoekstra, Congressman Ford and Payne, to introduce 
legislation based on recommendations of the White House Task 
Force on Disadvantaged Youth.
    I will just take a couple more minutes to describe the 
basic nuts and bolts of this Act.
    The Federal Youth Coordination Act creates the Federal 
Youth Development Council, and this would include members of 16 
youth serving agencies, as well as disadvantaged youths 
themselves. We think it is important that we have young people 
who are in the system, who are in some cases not being served 
well, also be on the Council to provide input.
    The duties of the Council are as follows: No. 1, evaluate 
youth serving programs. No. 2, coordinate among Federal 
agencies with youth serving programs.
    No. 3, improve Federal programs that serve at risk youth, 
such as foster care, homeless, educationally challenged young 
people, and so on.
    No. 4, recommend ways to coordinate and improve programs in 
an annual report.
    Right now, there is no annual written document that has 
anything to do with how well these programs are doing.
    I think maybe the last two points are the most important. 
No. 5, set quantifiable goals and objectives for Federal youth 
programs and develop a plan to reach these goals.
    In other words, each one of these programs should have 
measurable, quantifiable goals with a plan to hit the goal. If 
you don't know what the target is, you are not going to hit it. 
If you don't have a plan to get there, you will not reach it.
    This legislation requires these agencies to go through this 
process and to do these things.
    No. 6, hold Federal agencies accountable for achieving 
results. Accountability in Government many times is lacking. We 
think this legislation serves a very definite purpose. The 
objective is to serve more young people more efficiently than 
we currently do, and we think this will do this.
    I might mention that the administration certainly has done 
some good things, and they are attempting to address some of 
these problems, but Administrations come and go. We need 
continuity.
    Certainly, there are many things that are not currently 
being done even under this administration, which is attempting 
to do some of the things that were reported by the Task Force.
    Last, let me just say this. There are 185 organizations 
supporting this legislation. I would like, Mr. Chairman, to 
submit a list of those organizations for the record, and with 
that, I yield back.
    [The prepared statement of the Honorable Tom Osborne 
follows:]

 Statement of Hon. Tom Osborne, a Representative in Congress from the 
                           State of Nebraska

    Mr. Chairman,
    I want to thank you for allowing me to join your Subcommittee for 
today's very important hearing on federal youth development and 
coordination efforts. I have long advocated for a stronger emphasis at 
the federal level on youth development programming because I believe it 
is critically important in order to help our young people grow up to be 
healthy and strong.
    The genesis of today's hearing is in the report of the White House 
Task Force on Disadvantaged Youth. Although the final report was issued 
several years ago, I believe that the Task Force report and its 
thoughtful analysis and recommendations deserve a hearing and 
discussion in Congress. Although the Executive Branch is charged with 
implementing youth programs, Congress creates many of these programs 
and funds them. We need to know that our efforts are producing the best 
results for young people in the United States.
    The White House Task Force on Disadvantaged Youth noted a number of 
facts about America's young people and the programs that serve them:
    <bullet>  The National Academy of Sciences estimates that one-
quarter of adolescents in this country--almost 10 million teens--are at 
serious risk of not achieving productive adulthood.
    <bullet>  Most young people will grow up just fine without 
government involvement, but that the most vulnerable young people may 
be missed by programs designed to help them. Worse, the programs we 
think will help them may, in fact, not and that there is a serious lack 
of rigorous evaluation of federal youth efforts.
    <bullet>  A large number of youth-serving programs are targeting 
large numbers of youth subgroups. These services and target populations 
often overlap.
    <bullet>  The current federal response to youth failure is 
convoluted and complex, and is a perfect example of what the GAO has 
called ``mission fragmentation.'' The GAO recommends that programs with 
similar goals, target populations, and services be coordinated, 
consolidated, or streamlined as appropriate, to ensure that goals are 
consistent and that program efforts are mutually reinforcing.
    The White House Task Force identified a number of goals and changes 
that, if implemented, would help to better coordinate the hundreds of 
programs across 12 federal departments that serve or at least partially 
serve youth. The three largest youth-serving agencies are the 
Departments of Health and Human Services, Justice, and Education.
    To support these efforts, in February of this year, I, along with 
my colleagues Mr. Hoekstra, Mr. Ford, and Mr. Payne, introduced H.R. 
856, the Federal Youth Coordination Act, which was crafted to help 
implement many of the recommendations of the White House Task Force on 
Disadvantaged Youth.
    The Federal Youth Coordination Act creates the Federal Youth 
Development Council to evaluate, coordinate, and improve federal youth 
serving programs and hold federal agencies accountable for achieving 
results.
    The duties of the Council include:
    <bullet>  Evaluating youth serving programs
    <bullet>  Coordinating among federal agencies with programs serving 
youth
    <bullet>  Improving federal programs that serve at-risk youth
    <bullet>  Recommending ways to coordinate and improve youth serving 
programs in an annual report on federal youth development programs
    <bullet>  Setting quantifiable goals and objectives for federal 
youth programs and developing a plan to reach these goals
    <bullet>  Holding federal agencies accountable for achieving 
results.
    America's young people deserve high quality, effective, and 
meaningful youth development programs. Our nation's taxpayers deserve 
their tax dollars to be spent on high-quality, effective and meaningful 
youth development programs. The Federal Youth Coordination Act 
addresses the disconnect between these two objectives.
    Again, Mr. Chairman, thank you for allowing me to join your 
Subcommittee today and to give this opening statement. I would like to 
thank all the witnesses and the youth development advocates who have 
supported this hearing. I am very much looking forward to hearing from 
our witnesses and moving forward with efforts to improve federal youth 
development activities.
                                 ______
                                 
    Chairman Tiberi. Thank you. Thank you for your leadership, 
Coach Osborne, on this issue.
    Unfortunately, our Ranking Member is stuck in Texas because 
of bad weather, but we have a pretty good fill in for 
Representative Hinojosa, so I will recognize Mr. Davis for an 
opening statement.

STATEMENT OF HON. DANNY K. DAVIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Davis. Thank you very much, Mr. Chairman. I certainly 
hope that the weather will change so that the Ranking Member 
can in fact get here this week. He is indeed stuck deep in the 
heart of Texas. I am pleased to fill in for him.
    I want to thank you, Mr. Chairman, for calling for this 
hearing today. I also thank each one of our witnesses for 
taking the time to come to Washington to testify.
    Many times in our national discussions and debates, we 
discuss the poor, the young, the old, the sick, the unemployed, 
but often times we forget about the middle. That is the ones 
who are no longer children but not yet adults, our nation's 
adolescents.
    As one who began teaching Sunday School when I was 12 years 
old and who spent many of my early years as a middle school and 
high school counselor, and as one who has worked with many 
organizations and groups such as Big Brothers, Big Sisters, 
youth clubs, youth organizations, and who has simply come into 
contact with young people, my home has always been sort of a 
haven for young people, and even as I was a kid growing up with 
ten brothers and sisters, my parents' home and our house was a 
haven for young people.
    In many ways, I would certainly agree that the odds are 
often stacked against this age group.
    Homicide is the second leading cause of death among young 
people ages 10 to 24 overall. Yet, many people in our society 
really don't have much wind of this. In this age group, it is 
the leading cause of death for African Americans and the second 
leading cause of death for Hispanics.
    In 2001, 5,486 young people ages 10 to 24 were murdered, an 
average of 15 each day.
    Suicide is the third leading cause of death among young 
people ages 15 to 24. In 2001, 3,971 suicides were reported in 
this group.
    According to the White House Task Force on Disadvantaged 
Youth, in 2003, the National Academy of Sciences estimates that 
one-quarter of the adolescents in this country are at serious 
risk of not achieving productive adulthood. Nationally, three 
of ten young people who enter public high school do not 
graduate 4 years later. The graduation rate is only 50 percent 
for Hispanic, African American, and Native American youth.
    I want to thank my friend and colleague from Nebraska, 
Congressman Osborne, for introducing H.R. 856, the Federal 
Youth Coordination Act, and shedding additional light on the 
need for more discussion, more action, for the health and well 
being of our nation's young.
    I have always been led to believe that the greatness of a 
society can be determined on how well it looks after its old, 
how well it looks after those who have difficulty caring for 
themselves, and how well it looks after and prepares its young 
for adulthood and continuing life.
    I welcome this hearing and thank you so much, Mr. Chairman, 
for calling this, and I yield back the balance of my time.
    Chairman Tiberi. Thank you.
    We have two panels of witnesses today. I would like to 
remind all panelists that we have a 5-minute limit that we will 
go by today.
    I will begin by introducing the distinguished witnesses on 
our first panel, Dr. Michael O'Grady, Assistant Secretary for 
Planning and Evaluation, U.S. Department of Health and Human 
Services, and is the principal advisor to the Secretary on 
policy development and health disability, aging, human 
services, science and data.
    The Office of the Assistant Secretary has played a 
coordinating function for many of the ongoing interdepartmental 
efforts addressing youth issues.
    Currently, Dr. O'Grady serves as chairman of the 
Interagency Work Group on the Community Guide for Helping 
America's Youth.
    Prior to his appointment, Dr. O'Grady served as the senior 
health economist on the majority staff of the Joint Economic 
Committees of the U.S. Congress. At the Committee, his work 
focused primarily on Medicare reform, the uninsured, and other 
national health issues.
    Dr. O'Grady, thank you for being here. You may begin.

 STATEMENT OF DR. MICHAEL J. O'GRADY, ASSISTANT SECRETARY FOR 
 PLANNING AND EVALUATION, U.S. DEPARTMENT OF HEALTH AND HUMAN 
                    SERVICES, WASHINGTON, DC

    Dr. O'Grady. Thank you very much.
    Mr. Chairman and Members of the Subcommittee, I am pleased 
to appear before you to discuss the important issue of 
coordinating our Federal efforts to improve the lives of youth.
    The President showed his commitment to our nation's most 
vulnerable children and adolescents when he established the 
White House Task Force for Disadvantaged Youth. He asked the 
Task Force to assess how Federal agencies might work more 
effectively to improve youth outcomes.
    I'm here today to report on the administration's progress 
in implementing the Task Force's final recommendations. I will 
also discuss the President's and First Lady's most recent youth 
initiative, Helping America's Youth.
    There is much good news to report on behalf of young 
Americans. Almost 72 million children in this country are doing 
well. They are being well prepared to take on the 
responsibilities of adulthood-self sufficiency, marriage and 
family, and civic engagement.
    However, while many American children and youth are 
thriving in their families and communities, there are still far 
too many who are struggling and are at risk.
    In December 2002, the President established the White House 
Task Force for Disadvantaged Youth. The President appointed 11 
different Federal agencies to the Task Force. He asked them to 
review all the existing Federal programs that served youth and 
then to make recommendations for improving agency 
effectiveness.
    The Task Force concluded that the best way to get the 
greatest outcome for disadvantaged youth was to focus on four 
goals.
    First, better management. Second, better accountability. 
Third, better parent/child connections, and fourth, giving 
priority to the neediest youth.
    We are pleased to report that much has already been done to 
implement the Task Force recommendations. Progress has been 
made on all four goals.
    Since today's discussion addresses coordination, I will 
focus my comments on our efforts to improve interagency 
coordination.
    The report recommended that interagency coordination should 
be accomplished around topic areas or special target 
populations. This is the approach we have taken to date, and we 
think it is working well.
    The needs of young people, particularly disadvantaged 
youth, are complex. A responsive Federal youth policy often 
requires the resources and expertise of multiple agencies. 
However, depending on the issue at hand, this may mean a 
different subset of agencies.
    For example, when we are addressing the impact of 
television marketing on youth obesity, we involve the 
Department of Health and Human Services and the Federal Trade 
Commission, and possibly even the Federal Communications 
Commission. But this project is unlikely to have a meaningful 
role for an agency such as the Department of Justice.
    In my written testimony, I describe how we are addressing 
the specific coordination identified in the report. For 
example, the Task Force identified the need to focus on youth 
aging out of foster care.
    I am pleased to report that the Department of Labor, the 
Department of Health and Human Services, Education and Justice 
have responded to this call by developing a national initiative 
to improve Federal, state and local services for these youth.
    To provide ongoing support for departmental coordination, 
the Domestic Policy Council held periodic meetings to monitor 
the progress the agencies have made.
    In addition, the Coordinating Council on Juvenile Justice 
and Delinquency Prevention has selected 13 Task Force 
recommendations and made them the work of that council.
    In my testimony, I have focused on where Federal agencies 
have been working together, but they have also been each 
working individually to implement recommendations in other 
areas, such as improving the quality and comprehensiveness of 
our Federal research on youth and youth programs.
    The release of the Task Force report did not mark the end 
of our Federal efforts at coordination or the President's 
concern about helping disadvantaged youth.
    Most recently, the President and Mrs. Bush launched the 
Helping America's Youth initiative. This initiative seeks to 
highlight effective community based programs in the three most 
important parts of children's and teens' lives, their families, 
their schools and their communities.
    At a conference this Fall, the First Lady will unveil the 
Community Guide for Helping America's Youth. The guide, or 
tool, as it is known within the different departments, is being 
developed collaboratively by seven different departments.
    It will provide information on youth development and 
community partnerships, as well as highlighting programs that 
have shown some promise of helping youth. It will help 
communities build partnerships, assess their needs and 
resources, and select the best programs to help their children 
and adolescents.
    The development of the HAY tool has been a great example of 
how the agencies can be most productive when they collaborate 
around a well specified task.
    In conclusion, I thank you for your interest in the 
coordination of youth programs. I know we share a vision of the 
goals we have for America's youth. I hope we can continue to 
work together to make this vision a reality.
    Thank you.
    [The prepared statement of Dr. Michael J. O'Grady follows:]

 Statement of Dr. Michael J. O Grady, Assistant Secretary for Planning 
     and Evaluation, U.S. Department of Health and Human Services, 
                             Washington, DC

    Mr. Chairman and members of the Subcommittee, I am pleased to have 
this opportunity to appear before you today to discuss the important 
issue of coordinating our Federal efforts to improve the lives of 
youth, particularly those young people who need our help the most. The 
President showed his commitment to our nation's most vulnerable 
children and adolescents when he established the White House Task Force 
for Disadvantaged Youth and asked the Task Force to assess how Federal 
agencies might work more effectively to improve youth outcomes. I'm 
here today to discuss the Administration's progress in implementing the 
Task Force's final recommendations. I will also briefly discuss the 
President and the First Lady's most recent youth initiative--Helping 
America's Youth (HAY). HAY is aimed at highlighting effective youth 
programs and providing information to communities on how they can come 
together to implement the best strategies for addressing the challenges 
their young people are facing.
    There is much good news to report on behalf of young Americans. 
Most of the 72 million children in this country are doing well.\1\ 
Within the context of their families and communities, they are being 
well-prepared to take on the responsibilities of adulthood--self-
sufficiency, marriage and family, and civic engagement. More than two-
thirds are living with two married parents. They feel connected to 
their parents and their schools, and these connections are helping them 
avoid behaviors that risk their current and future health and well-
being. They are showing a commitment to their communities, with 27 
percent of older teens volunteering to help in their neighborhoods or 
through service organizations.
---------------------------------------------------------------------------
    \1\ Data sources for this section include: U.S. Census Bureau; 
``Trends in the Well-Being of America's Children and Youth, 2002'', 
Office of the Assistant Secretary for Planning and Evaluation, U.S. 
Department of Health and Human Services; National Center for Education 
Statistics, U.S. Department of Education. This statistic refers to ages 
0--17.
---------------------------------------------------------------------------
    However, while many American children and youth are thriving in 
their families and communities, there are still too many who are 
struggling and are at risk of not making the successful transition to 
adulthood. About 15 percent of American children live below the poverty 
level; these rates are almost twice as high for minority children.\2\ 
Some have families who are unable to provide a nurturing home with the 
structure and support required for healthy development. More than half 
a million children are living in foster care due to the inability of 
their families to provide a safe environment. About 1.5 million 
children had parents in State and Federal prisons. In 2003, just over 
900,000 children were reported to have been abused or neglected. Each 
year, as many as one-and-a-half million children run away from home or 
find themselves on the streets and homeless.
---------------------------------------------------------------------------
    \2\ 30 percent of black children and 27 percent of Hispanic 
children live below the poverty level, 2001 data. $17,650 for a family 
of four in 2001, per the U.S. Census Bureau.
---------------------------------------------------------------------------
    Many of these difficult home and community environments contribute 
to adolescents engaging in risk taking behavior. Not living in a strong 
and nurturing family is probably one of the first predictors of poor 
outcomes. But even when families are functioning and capable, sometimes 
the problems they are attempting to address are simply beyond their 
capacity. The President believes every American has an opportunity to 
help children and youth in their families and communities to avoid 
trouble and lead more hopeful lives. Faith-based, community, and 
volunteer organizations across the Nation are involved in efforts to 
reach at-risk youth and get them involved in their communities. The 
President applauds their efforts while recognizing that the Federal 
government also plays an important role by pursuing policies that help 
the good works of these organizations.
    In December of 2002, the President became concerned that the 
Federal agencies could be working more efficiently, individually and 
collectively, to develop and implement effective programs to help 
disadvantaged youth. This led him to establish the White House Task 
Force for Disadvantaged Youth.

White House Task Force for Disadvantaged Youth
    The President appointed 11 Federal agencies to the Task Force and 
asked them to review all the existing Federal programs that touched 
youth, and to make recommendations as to where there could be enhanced 
agency accountability and effectiveness.
Goals for Youth
    The President believes in outcomes-based policy. During their first 
meetings, Task Force members were asked to consider the outcomes they 
hoped to achieve for at-risk youth. It was evident to the members that 
while they were focusing on the needs of a very specific population, 
what we want for disadvantaged youth is what we want for all our 
children. We hope that they will grow up to be:
    <bullet>  Healthy and Safe
    <bullet>  Ready for Work, College and Military Service
    <bullet>  Ready for Marriage, Family and Parenting
    <bullet>  Ready for Civic Engagement and Service
    Because there were so many Federal programs to review, the Task 
Force divided itself into subcommittees focusing on each of these 
outcomes. An additional subcommittee addressed issues related to 
research and accountability.
    Task Force staff then conducted a survey of all the Federal 
agencies to identify any program that touched youth. Through this 
survey, staff identified that in fiscal year 2002, there were 339 
Federal programs that served or addressed issues relating to 
disadvantaged youth in some way. A total of 150 programs serve youth 
ages 0 to 21; 68 of those focus solely on school-age youth. The 
remaining 185 programs serve various ages of youth as well as adults; 
this can mean entire families, or adults who are working with youth. 
The programs were administered by 12 departments and agencies. Three 
departments, Health and Human Services, Justice, and Education, housed 
the bulk of the programs.

October 2003 Report Recommendations
    Each subcommittee considered the programs that addressed their 
focal areas. Programs were reviewed to consider their alignment with 
the agencies' mission, their target populations, and the risky 
behaviors they hoped to avert. While they each looked at a different 
subset of programs, the committees ultimately came to similar 
conclusions: The best way to get the greatest outcomes for 
disadvantaged youth from the significant Federal funds invested was to 
focus on these four goals:
    <bullet>  better management,
    <bullet>  better accountability,
    <bullet>  better connections and
    <bullet>  priority to the neediest youth.

Progress on Recommendations
    Since the completion of the report, we are pleased to report that 
much has been done to implement its recommendations. Progress has been 
made in all four areas, but since the bill being discussed today 
addresses coordination, I will focus my comments on our efforts to 
improve interagency coordination, particularly around prioritizing the 
needs of disadvantaged youth.
    The report recommended that interagency coordination should be 
accomplished around topic areas or special target populations. This is 
the approach we have taken to date and that we think is working well. 
The needs of young people, particularly disadvantaged youth, are 
complex. Just as we acknowledge that a well functioning support system 
for youth requires input from families, schools and communities, a 
well-functioning Federal youth policy often requires the resources and 
expertise of multiple agencies. However depending on the issue at hand, 
this may mean a different subset of agencies. For example, when we are 
addressing the issue of impact of television marketing on childhood 
obesity, we would involve the Department of Health and Human Services 
(HHS), the Federal Trade Commission (FTC), maybe even the Federal 
Communications Commission (FCC), but there may be no meaningful role 
for the Department of Justice (DOJ).
    Let me give you a few example of how we are coordinating within the 
Administration to improve outcomes for specific populations of youth.

            Foster Care Youth and Workforce Preparation
    The Task Force identified as a priority the needs of youth aging 
out of foster care. I am pleased to report that the Department of Labor 
(DOL), in partnership with the HHS, the Department of Education (ED) 
and DOJ, has responded to this call by developing a national initiative 
to improve Federal, State and local services for these youth. Their 
joint goals are to develop new and innovative service approaches, to 
enhance the quality of services delivered, and to improve program 
outcomes and efficiencies for youth who are commonly served across 
agency lines. Through a series of Regional Forums, these agencies 
convened 52 teams of program administrators from States and insular 
areas to identify opportunities for aligning services and creating 
ongoing strategies for improving programs across agency lines. Each 
team included representatives from the State workforce investment, 
education, juvenile justice and foster care agencies--many of whom had 
never before met together. This opportunity for discussion and 
interaction generated partnerships we hope these agencies will build 
over time.

            Education and Out of School Youth
    Another key area of focus is on providing more access to 
alternative education for out-of-school youth and outcome-based 
alternative education that is consistent with No Child Left Behind. The 
Department of Labor is developing a partnership with Department of 
Education to work on aligning efforts around alternative education, 
adolescent literacy and numeracy, and enhanced GED programs. Among 
other things, this partnership is exploring strategies for youth 
workforce development programs funded through the Workforce Investment 
Act (WIA), to support public school systems as they undertake the 
implementation of the No Child Left Behind (NCLB) legislation.

            Education of Migrant Youth
    ED, HHS, USDA, and Labor have formed an interagency team to address 
the education needs of migrant youth. The team has developed a proposal 
for a demonstration project that would allow for enrollment of migrant 
out-of-school youth in education programs at various locations along 
the migrant stream. This proposal is being finalized and soon the 
departments will publish a concept paper that details the demonstration 
in the Federal Register for public review and comment.

            Youth Offenders and Workforce Preparation
    DOL has recently announced several other reforms that aim to more 
effectively and efficiently serve out-of-school and at-risk youth 
through the workforce investment system by focusing on four major 
areas. The strategic vision underlying these initiatives specifically 
targeted to youth offenders was developed in partnership with ED, HHS 
and DOJ. Examples include: helping youth offenders improve reading and 
math skills, building partnerships between the public workforce system, 
business and industry representatives, the juvenile justice system, and 
education and training providers, including faith-based and community 
organizations.

            Trafficking
    The Administration has become very concerned about the issue of 
human trafficking. We are seeing a strong coordinated effort between 
HHS, DOJ and, now, Department of Homeland Security (DHS) on juvenile 
trafficking in particular. While HHS provides humanitarian assistance 
to trafficking victims, DOJ prosecutes traffickers, and DHS (and the 
FBI) are usually the lead investigative agency uncovering and 
developing trafficking cases. The structure of the effort is such that 
whoever ``first'' uncovers trafficking cases coordinates with the other 
agencies to ensure that the statute's requirements related to both law 
enforcement and humanitarian assistance are followed.

            Coordination Around Specific Topics
    But our coordination efforts are not limited to the needs of 
specific youth populations. There are issues that affect the entire 
youth population and require the attention of multiple agencies. For 
example:

            The Impact of Marketing on Childhood Obesity:
    HHS is working with the Federal Trade Commission (FTC) to examine 
issues around marketing of food and beverages to children in light of 
child health concerns, including the rise in childhood obesity. HHS and 
the FTC will jointly sponsor a workshop to examine various perspectives 
on marketing, self-regulation, and childhood obesity. The workshop will 
bring together representatives from food and beverage companies, media 
and entertainment companies, medical and nutrition experts, consumer 
groups, advertising specialists, and other key experts for an open 
discussion on industry self-regulation concerning the marketing of food 
and beverages to children, as well as initiatives to educate children 
and parents about nutrition.
    These are just some examples of the way we are coordinating our 
Federal efforts to help youth. I have focused on where the Federal 
agencies have been working together, but they have also each been 
working individually to implement activities responding to all four of 
the areas in which the Task Force issued recommendations. In 
particular, there have been great efforts to improve the quality and 
comprehensiveness of our Federal research on youth and youth programs. 
The President is committed to our better understanding and supporting 
what works for youth and not supporting programs that have been shown 
to be ineffective.

Monitoring the Federal Youth Efforts
    The Domestic Policy Council has periodically held meetings to 
monitor the progress the agencies have made on the Report 
recommendation. In addition, the Coordinating Council on Juvenile 
Justice and Delinquency Prevention has selected thirteen of the Task 
Force recommendations and made them the work of the Council. The 
Juvenile Justice and Delinquency Prevention (JJDP) Act of 1974 
established the Coordinating Council on Juvenile Justice and 
Delinquency Prevention (Council) as an independent body within the 
Executive branch of the Federal Government. The Council's primary 
function is to provide interdepartmental coordination of Federal 
juvenile delinquency prevention programs, Federal programs and 
activities that detain or care for unaccompanied juveniles, and Federal 
programs relating to missing and exploited children.

Helping America's Youth
    The release of the Task Force report did not mark the end of our 
Federal efforts at coordination or the President's concern about 
helping disadvantaged youth. Most recently, the President and Mrs. Bush 
launched the Helping America's Youth Initiative. This initiative seeks 
to highlight effective community based programs in the three most 
important parts of children's and teens' lives: their families, schools 
and communities.
    The First Lady has been touring the country visiting community, 
school and faith-based programs and will culminate her tour with a 
conference in the Fall, in which researchers, program and community 
leaders will highlight what works to help improve youth outcomes. At 
this conference she will unveil the Community Guide to Helping 
America's Youth. The guide (or the tool, as we have come to call it) is 
being developed collaboratively by seven Departments. It will provide 
information on youth development and community partnerships, as well as 
highlighting programs that have shown research-based evidence that are 
helping youth. It will help communities build partnerships, assess 
their needs and resources and select the best programs to help their 
children and adolescents. The development of the HAY tool has been a 
great example of how the agencies can be most productive when they 
collaborate around a well-specified objective.

Conclusion
    I thank you for your interest in the coordination of youth 
programs. I know we share a vision of the goals we have for American 
youth. I hope we can continue to work together to make this vision a 
reality.
                                 ______
                                 
    Chairman Tiberi. Thank you, Dr. O'Grady, for coming today 
on short notice. Appreciate your testimony and your efforts in 
this area.
    I am going to yield my 5 minutes to the sponsor of the 
bill, Congressman Osborne.
    Mr. Osborne. Thank you, Mr. Chairman. Thank you, Dr. 
O'Grady, for your testimony.
    A couple of questions. Do the departments have the 
authority they need under statute to do as much coordinating as 
needed?
    We realize there are some cases where actually statute 
prohibits one agency from interfacing effectively with another 
agency.
    Do you feel there are no barriers here, or do you see some 
barriers that need to be removed?
    Dr. O'Grady. When you mentioned that in your opening 
statement, I was a little surprised at that, and I would like 
to follow up with you, if you can identify where those are.
    The various ones I've been involved with, I haven't seen 
that. I am not saying it is not there. I would like to identify 
where it is and see if we can't fix it.
    At this point, what we are finding is that the ability to 
coordinate is working well and it is working better than it has 
in the past. These different agencies share a common goal in 
fixing things. We have not had some of our own internal 
concerns, like turf, competition, or anything like that, or you 
pay for it, not me. We are seeing that kind of coordination and 
it seems to be working well.
    For the most part, this is--my background is in research. 
This is a situation where people find other people are working 
on the same sort of topics that they are. For the most part, it 
is a very positive experience to sit down with other people 
wrestling with the exact same problems and seeing if you can't 
combine resources and thoughts and come up with something 
better.
    Mr. Osborne. Thank you. Assuming that things are going very 
well, what about assurances of the Federal Government to 
continue this level of intensity and coordination efforts at 
the end of the current President's term in office?
    Is there anything that we have ongoing now that ensures 
that there will be continued cooperation?
    Dr. O'Grady. Certainly we have the leadership of the 
Domestic Policy Council. Whether they are transferring into 
another Administration is certainly anybody's guess. There is 
no doubt about that.
    What we have done is by breaking down some of the previous 
barriers, and some of them weren't even barriers, they were 
just the team at this department did not know the people on the 
team at the other department, once you built up that sort of a 
working relationship across these lines, that is a working 
relationship that we know certainly our senior civil servants 
and our civil servants will continue on from one Administration 
to the next.
    If you plant that seed and you get that sort of working 
relationship and you establish it well and you have some 
success under your belt, the likelihood of that continuing 
certainly is excellent.
    Mr. Osborne. I can see that point, that certainly once you 
get some communication going, it may continue. We have no 
certainty that it will. That is why we are somewhat concerned 
about at least some statutory obligation to do so.
    Let me give you a personal example. We had an amendment in 
No Child Left Behind to establish mentoring programs. We 
specified that one of the reasons we were doing this was to No. 
1, increase the number of young people in mentoring 
relationships, but also to examine the different types of 
mentoring programs, what works, what doesn't work, what is 
going on in this part of the country that is not happening 
somewhere else.
    And now about 3 years later, we have asked where is the 
assessment. How do we know that this is working.
    We got sort of a review of the literature. We have been 
told now that they are going to hire a consulting firm to get 
this information.
    This is the original intent of the amendment. What I am 
getting at is that we feel very strongly that despite your 
efforts, and I am sure they are very good, and I am sure 
progress has been made, we would like to see a little bit more 
follow through in these types of areas where we are holding 
people to a greater degree of accountability.
    I don't know if you have a comment on that or not.
    Dr. O'Grady. On that one in particular, I don't know. Back 
to your earlier comment, we do know that the Juvenile Justice 
Coordinating Council is in statute and will continue on from 
one Administration to the next.
    The other thing in terms of thinking about how you sort of 
build a legacy and how you continue to develop these working 
relationships, some of the things that have gone on, what I 
would call the management in the executive branch, has 
facilitated this. It's much easier than it was years ago.
    The ability for agencies to pool and partner with each 
other, to share funding, to put it together to be able to build 
that critical mass as an investment and the need to move 
forward is much easier.
    On the idea of coming in with assessments in terms of 
coming up with--I had the shop at Planning and Evaluation at 
HHS. The world is full of good intentions. What we really need 
is to be careful with the taxpayers' dollars and to know what 
works and what doesn't. What is best practice.
    I agree with you totally on that. I would say also from 
everything we have seen from the Office of Management and 
Budget over the last few years, they want to know about return 
on investment. They want just those sort of measures you were 
talking about.
    As this program works, what are the parts that are working 
well, what are the parts that need fixed, you need to take 
another look at because they just don't seem to be producing 
results.
    Mr. Osborne. Thank you, Dr. O'Grady. Mr. Chairman, I yield 
back. I see that my time limit has expired.
    Chairman Tiberi. Thank you. Congressman Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    I have always had a great deal of respect for planning and 
evaluation in the Human Services and the provision of programs. 
I thank you very much again, Dr. O'Grady, for being here.
    I agree that the problems are of great magnitude across the 
country. Of course, I come from an inner city area of one of 
the largest cities in the country. I come from Chicago, where 
the problems are enormous, just in terms of the sheer numbers, 
the magnitude, the difficulty of living in a big urban 
environment, all of the competing forces and competing 
activities.
    I am very interested in youth offenders in the work place. 
As a matter of fact, just this past Saturday, we had one 
meeting where we had more than 3,000 offenders come, some 
young, some older, trying to fit them with cleaning up their 
records so they could have access to employment opportunities.
    Could you tell us when your report is going to be 
available, and could you go a bit more into detail than what we 
have been able to gleam from your testimony?
    Dr. O'Grady. I think there are a number of different 
things, if you don't mind, that I could talk about. Youth 
offenders in the work place and that notion, that certainly is 
an area that we are looking at, that we are doing the research 
on now to try and figure out exactly what can be the most help.
    We already have Welfare to Work. Folks coming out of 
prison, coming out of incarceration, what about their families 
while they are in. What about getting them back in the labor 
force.
    At this point, there are a number of different pieces that 
we have sponsored at the University of Michigan that are 
looking at some of these issues. I think it is sort of the next 
frontier after Welfare to Work, how to re-integrate folks back 
into the community after that sort of a problem.
    In terms of some of the other things we talked about, one 
of the things that we are trying to do more and more, what we 
are talking specifically about today is across Federal 
agencies, but one of the things we have had a lot of success 
with is the idea of as we start thinking about how the Feds 
coordinate with the state, coordinate with local, county and 
municipal government, and how you can do that in a more 
intelligent way, along the lines of what was talked about 
before, where you can identify best practice.
    That is a number of things where we found with the 
strategic investment of Federal taxpayers' dollars, you can 
bring those people together, you can show them what is going 
on, you can do presentations, and we have a number of things 
having to do with homelessness and other problems, and we have 
had very good success bringing those different teams from 
different states and different municipalities together.
    One of the real strengths we have with our country--because 
some of the other work I do, I do some of the international 
work at the OECD in Paris, and one of the things is we really 
have an advantage here.
    If you have a system where the Government runs the entire 
health care system or the entire welfare system, my 
counterparts in Cleveland or France, they have a heck of a time 
figuring out what are their alternatives, what works. I think 
that is a real advantage of not only this coordination among 
the Feds, but also going to the state and the locals, so you 
have that sort of natural laboratory.
    We tried this in Indianapolis, this worked, this didn't. We 
tried this in Cleveland, this worked, this didn't. You can sort 
of learn from other people, and also learn what not to do.
    In terms of making those sorts of efforts and figuring out 
how to do this smarter, I think there are a number of different 
points. Certainly, how you bring folks back into the community 
is one of the most important ones I can think of.
    Mr. Davis. Let me also suggest--I agree we can get a great 
deal out of coordination, because you can connect things and 
see who is doing what and really know what is happening.
    Of course, many of the people that I interact with in child 
welfare and human services complain that they just don't have 
any resources to work with, or they don't have adequate 
resources.
    I know this legislation does not talk about authorization 
of money, but is the administration talking about how to get 
resources into the activity so that the ideas can in fact be 
better implemented?
    Dr. O'Grady. Yes. I think in terms of when you think about 
the Federal Government, the role they play--it is true, people 
appear from all the data we look at that they are eligible for 
different programs, and some of that is out reach. You see 
people who every indication says they are eligible for 
Medicaid. How do you get them in.
    Some of that when you think about our mainstream program, 
our big one, Medicare, and some of the other big programs we 
have, where you know you can provide a lot of resources to 
folks, for instance, the children's health insurance program, 
those sorts of things. You know you can do better.
    The other things that the Federal Government does and it is 
always welcome but they always wish there was more, is the idea 
of the Feds moving in--it's almost venture capital. Give a 
grant to a community, see if it will work, but it almost always 
mean there is a 5-year phaseout or something like that.
    The Federal Government is more than happy to come in and 
kind of take the risk, but then when the program is up and 
running, normally that money is phasing out and then it is 
either at state or local.
    At that point, that is the time, I think, to come back to 
Congress and say this seemed to work, this didn't, this state 
is really happy with the way this is going.
    The traditional Federal role, other than our big programs, 
tends more to be sort of we are willing to finance the 
experiment, but if it's ready to go to scale, then we are 
certainly looking to start other partners.
    Mr. Davis. Thank you very much. Mr. Chairman, I yield back 
the balance of my time.
    Chairman Tiberi. Thank you. Congresswoman McMorris.
    Ms. McMorris. Thank you, Mr. Chairman.
    I also, Dr. O'Grady, want to just applaud the goals that 
you laid out as far as the management, accountability, and 
strengthening the family and then targeting the at risk.
    I guess I think one of the biggest challenges with all of 
these programs is actually getting the money on the ground to 
where services are delivered.
    I wanted to start out by just asking you if you could give 
me a sense from what you know as to how much money actually 
stays within the administration, within the management level, 
as compared to the money that actually gets on the ground and 
put into services.
    Dr. O'Grady. I don't have a specific figure and I don't 
want to shoot from the hip, so if you don't mind, I'll have my 
staff get back to you with a more detailed answer to that.
    I would say there are sort of two parts on that. Some of 
the stuff we see in programs like Medicare, there is certainly 
an argument that is being made that if you are going to do 
something like a prescription drug benefit, you better have an 
administrative infrastructure there that is fairly developed to 
make sure seniors know what their options are and things like 
that.
    I think we are always trying to keep the size of 
bureaucracy down, the size of Government down. At the same 
time, we don't want to short shrift the responsibilities.
    Ms. McMorris. One of our continual challenges is dealing 
with coordination between the agencies. You spoke about the 
disadvantaged youth programs and how they are within Health and 
Human Services. They are within Justice, within Education.
    Can you give me a sense as to what mechanisms are really in 
place to ensure coordination, or if you think it is necessary 
that we set up some kind of new mechanism to evaluate?
    Dr. O'Grady. I think right now, the working relationship 
that we are having, which is coordinated through the Domestic 
Policy Council, coordinated through the White House, is the one 
that we are finding is working for us.
    When you bring together these different people from the 
different agencies, not only is it working fairly 
collaboratively, but you can see the improved product.
    Later this week, we are doing a joint session with the 
Federal Trade Commission having to do with youth obesity and 
advertising to youth, and kind of what those interactions are.
    That has worked very well from our side. The Federal Trade 
Commission, they know tons about advertising. They know tons 
about the airways and truth in advertising, those sorts of 
questions.
    Health and childhood obesity was not their strong point. We 
brought that to the table. They brought their expertise to the 
table. The combined effect was certainly very effective.
    At the same time, I guess I would put on the table the idea 
that you want to remain as flexible as you can. In my 
testimony, I talk a little bit about you want the right players 
at the table, but it's not always necessary to have every 
player at the table, and it can be sometimes counter 
productive.
    In a case like this, that is where no, we didn't coordinate 
tons with our colleagues at Justice or we touched base with 
some people, but there are other people. You want the people 
who are really going to contribute and really have the 
expertise at the table.
    Ms. McMorris. Kind of in that same vein, how do you go 
about actually coordinating with the state and local at that 
level to ensure that money is targeted in such a way that is 
really going to have the most impact in a local community?
    Dr. O'Grady. The way that we tend to do that, and I would 
say outside the big entitlement programs and some of the other 
things going on, is we do have the ability to fairly 
effectively and fairly flexibly co-fund different projects like 
this.
    In the old days, it certainly wasn't true, but our ability 
to say that we want to put something together, like I say, we 
are putting on this effort with the FTC, the idea of HHS can 
move their money over to the FTC, FTC can move their money 
over, so you have one source that is handling this.
    It is an ability to coordinate not only with the staff and 
have them talking and make sure that works right, but also to 
do just what you are talking about, can you pool your resources 
so there is a coordinated one effort that is sort of moving out 
and making sure this thing happens.
    Ms. McMorris. Thank you, Mr. Chairman.
    Chairman Tiberi. Thank you. Congressman Inglis.
    Mr. Inglis. Thank you, Mr. Chairman.
    Let me back up, if I may, from the questions on 
coordination and those kinds of things to a more general 
question.
    What can the Federal Government do to replace parents? How 
effective is this? What can we really do?
    Here is what I am wondering about. I was with a group of 
folks on Saturday night who identified that many of the 
problems with troubled youth is they lack a parent.
    Sitting there in that group, I didn't want to have a 
response of let them eat cake, let them go find better parents.
    The question is how do you make better parents. An example 
was brought up of a 35 year old grandmother who has no 
parenting skills and who passed onto her child no parenting 
skills, and who is now passing onto her child no parenting 
skills.
    Here we are, trying to figure out, I guess, as a 
government, how to fix that 35 year old grandmother's problem, 
and her daughter and her daughter's child.
    Backing up a little bit, just tell me, what can we do?
    Dr. O'Grady. To your first question, are we ever going to 
replace parents, certainly not. That's not the role of 
Government.
    It is the role of Government to be able to do what it can. 
Is it a proper policy goal to be as supportive of parents as 
possible? Sure. That is the kind of stuff we can do. That is 
the sort of thing we can do to try and help keep families 
together.
    There are different programs. You laid out a very thorny 
problem of what you can do. I am trying to think of the name of 
the program, and I am blank.
    There are programs that do things like when that person 
comes in, this is a pregnant woman, it is clear this is an 
average situation, the baby is going to be born. You can send 
that visiting nurse in and you can show how to childproof the 
house. You can never twist anybody's arm. If they throw you 
out, they throw you out.
    The Government can support parenting, not try to replace 
it, but they can support. That program goes in before the baby 
is born, it sort of shows how to get ready. It shows all these 
different things, feeding.
    It is not the Feds or the states or whatever doing it for 
them, but it is simply providing them--along the lines of the 
kind of mentoring that Congressman Osborne was talking about. 
If there are no skills in the traditional way, we learn from 
our parents, we learn from our teachers, are there things you 
can do.
    I think it is along those models. We know certainly 
traditionally the major influences on most of us in our lives 
are our parents. We know there are those special teachers, that 
Scout leader, that coach, other people.
    You can try to build that sort of support network.
    The point about coming out of prison, that is a very 
tenuous situation. If you can keep that family together, if you 
can get somebody back in the labor force, get them back on 
track.
    Mr. Inglis. A good example you just used about 
childproofing the home. We, the Government, send somebody in to 
help childproof the home. We have the home childproofed. Now, 
we have to talk about how to teach reading, and then we need to 
talk about eating properly. Then we need to talk about--in 
other words, through this 35 year old grandmother's home, we 
may run a whole series of people.
    If all the programs are working optimally, I suppose we 
would have about ten people knocking on her door and working 
with her.
    You begin to wonder how do you replace this thing called a 
parent, her parent, the 35 year old grandmother's parent. The 
parent is this multi-faceted person who does some things well 
and some things poorly. I've surely done some things poorly as 
a parent, a few things well.
    You start trying to replace them, and you literally have 10 
to 12 people knocking on the door.
    I am wondering is the model working. Is there some other 
way to have a single--I don't know what the single mentor would 
be, but somebody to really love and care for this 35 year old 
grandmother, and to help that whole family, but it takes 
somebody very committed to them, and somebody that 35 year old 
grandmother can grow to trust, but the 10 to 12 people knocking 
on the door, helping childproof first and then food next. The 
woman is going to get worn out by the people coming to the 
door.
    Dr. O'Grady. You are absolutely right. We try to get that 
down to kind of one shot shopping, that there is somebody that 
comes in.
    In this particular area--we have some things like with 
folks with disabilities, where really what they need is 
somebody who can help them with housing questions, with medical 
questions, food, different things.
    You have to a certain degree an expertise developing there 
in terms of whatever you want to think about, coping skills. 
You try to not have this parade of folks going through. You 
have somebody who specializes and says, you know, an extra set 
of rails on your steps, how to move them up the learning curve.
    You are never going to twist their arm. You are never going 
to say the Government will come in and replace unless you have 
child welfare. If a child is at risk, that is different.
    How do you take folks and help bring them along, and just 
show them what other people have learned works over time.
    You are absolutely right, try to keep that to a minimum. 
Some of it, you may not be able to. It may take a few different 
people. You do not want to be running 10 or 12 people through 
anybody's house.
    Mr. Inglis. My time is almost up. It seems to me that what 
is clear is you have to find support systems within communities 
that really can plug into love and care for that 35 year old 
grandmother in a consistent sustained way, and help care for 
that whole family.
    Certainly, the Government has a role. It is pretty clear to 
me that churches and synagogues have a tremendous additional 
role in a caring community that can somehow come along side 
that 35 year old grandmother.
    It is a real challenge. I do not feel I have very 
satisfactory answers. I don't know that any of us really do. 
That is very frustrating.
    I appreciate the comments.
    Chairman Tiberi. Dr. O'Grady, thank you for your time. One 
additional question by the Ranking Member.
    Mr. Davis. Dr. O'Grady, do programs grow out of Planning 
and Evaluation activity in terms of planning, and looking at 
what has not worked or trying to determine how to get to the 
end result?
    The question was sort of stimulated by my colleague's focus 
on parenting. It seems to me that one of the great needs that 
exists in many communities for troubled youth is to have 
parenting activities to help their parents better learn and 
understand how to become parents.
    I had a great experience visiting with my father who just 
died last year but he was 92 years old, so he had a great run. 
A few years before that, he was living in the State of Arkansas 
and I went to visit with him.
    We went to the supermarket. A group of young women sort of 
converged around him. They were hugging him and kissing him and 
all those kinds of things. I jokingly said to him, what is 
happening, what's going on? All these young ladies.
    He said, what are you talking about. Finally, he said you 
know, they are doing that because I'm a foster grandparent. I 
help teach them how to raise their children, how to understand 
things that perhaps they were not taught.
    Is that an area that maybe we can seriously develop more 
program activity in? Parenting classes and opportunities for 
young parents who really haven't learned how to be parents.
    Dr. O'Grady. There are a number of things that are being 
done, but is there always something, is there always more 
innovation and a more creative way to think about putting these 
things together? Of course.
    That is the sort of stuff that we do at Planning and 
Evaluation. What works. What doesn't. What have you learned 
from what other people have tried and what are gaps that you 
really do want to move into, because there is just not, for 
whatever reason, nobody has done it yet, and it looks like 
there is a crying need for it.
    In terms of that sort of area, thinking about parenting, we 
can see things like--one of the most effective anti-poverty 
tools we have is an intact family. It can do more than lots of 
other things we have tried in different ways.
    How do you keep people--just support that. Not tell people 
how to run their lives, but certainly help them out if they 
need help, and show them what other people have learned.
    Mr. Davis. I want to see us put some money into it. I think 
we could not necessarily have to put a lot of money into it, 
because you are dealing with groups of people, teaching them 
how to do things themselves. I believe if they knew better, as 
my mother used to tell us, they would do better.
    I thank you for your testimony and appreciate the 
indulgence, Mr. Chairman.
    Chairman Tiberi. Thank you. Congressman Ryan.
    Mr. Ryan. Thank you, Mr. Chairman. I apologize for being 
late, Mr. Secretary.
    I don't know what has been covered or what actually has not 
been covered, but I do want to maybe make a comment and ask 
your opinion.
    One of the things just growing up, you see kids and 
students in certain school districts who have a lot more 
opportunities, I think, at a very young age, to kind of grab 
onto something that interests them. Many times, it is sports, 
but other times it is speech, drama, arts, visual arts, music, 
something.
    I just think it is very important for young kids to have 
that outlet, something that they love, that they are willing to 
not be good at at first and then master and develop some kind 
of self confidence.
    I just think the arts is a great opportunity for a lot of 
young students. I think it is a shame that those of us who have 
been fortunate in life have those opportunities and a lot of 
other students do not.
    Just comment for me on how important you think that is or 
if it is not important or if I am in la la land somewhere.
    Dr. O'Grady. I'm with Health and Human Services, my 
traditional jurisdiction. When we think about these situations 
of how you help disadvantaged youth, how you move forward, I 
sort of take all the tools in the tool box approach to what you 
need.
    How do you reach somebody? How do you find their passion or 
whatever you want to think about it. I tend to think of art in 
there with sports and with other things that schools can offer, 
other things they can take, Scouting, all these different 
things.
    Especially if you have somebody who maybe doesn't have the 
best home life or had some other bump in the road that they are 
facing, is there something that will just motivate them just 
the way you talked about.
    I guess I think of that within this whole sort of tool box 
of things you would like to be able to have sort of catch their 
interest and help them to be able, like you said, to focus on 
something, develop a real motivation and really develop in that 
area, and then feel good about themselves.
    Mr. Ryan. The reason I brought this up to you is I have 
read articles lately talking about music therapy. Is this an 
area worth pursuing or something you are familiar with?
    Dr. O'Grady. I don't know enough about music therapy to 
comment.
    Mr. Ryan. I don't either. That is why I asked you. I 
appreciate it.
    Dr. O'Grady. Thank you.
    Mr. Ryan. Thank you, Mr. Chairman.
    Chairman Tiberi. Thank you. Thank you, Dr. O'Grady, for 
your testimony and your time today. Thank you for being here. I 
am sure the sponsor of the bill and other Members of the 
Committee are going to look forward to working with you as we 
continue to struggle with this issue and improve upon it.
    Dr. O'Grady. Thank you very much for having me.
    Chairman Tiberi. Thank you. I am going to ask the second 
panel to come forward. While we are doing that, I am going to 
introduce our four panelists as we are setting up.
    The reason for that is we are being told we are going to 
have a vote between 11:45 and 12. I would like to get all four 
panelists' testimony in before our next series of votes.
    Let me introduce Richard Moore. Mr. Moore serves as 
Administrator of the Iowa Criminal and Juvenile Justice 
Planning and Statistical Center at the Iowa Department of Human 
Rights in Des Moines, Iowa.
    He has designed and developed original policies and the 
service delivery structure for Iowa's family centered and 
family preservation service programs, as well as policies to 
enable the de-categorization of child welfare and juvenile 
justice funds.
    Mr. Moore is a convener of the Iowa Collaboration for Youth 
Development, an interagency initiative designed to better align 
state level youth policies and programs and to encourage 
collaboration among multiple state and community agencies on 
youth related issues.
    I would like to welcome Ms. Laura Shubilla. Ms. Shubilla is 
a co-founder of the Philadelphia Youth Network, a non-profit 
organization dedicated to the goal of ensuring that all of 
Philadelphia's youth have the tools and opportunities they need 
to succeed in the workforce and the world.
    Philadelphia Youth Network reaches thousands of 14 to 21 
year old youth each year, most of whom live in poverty and 
would otherwise have few opportunities to envision their own 
career potential and a pathway to achieving it.
    Ms. Shubilla served as the Philadelphia Youth Network 
senior vice president from its inception in 1999 and was 
appointed as president of the organization in July of 2002.
    I would like to introduce Ms. Marguerite Sallee. Ms. Sallee 
is the president and CEO of America's Promise, The Alliance for 
Youth, founded after the President's Summit for America's 
Future in 1997 with Presidents Bush, Carter and Clinton, and 
Ford, with Nancy Reagan representing President Reagan, 
challenging the country to make children and youth a national 
priority.
    Prior to joining the America's Promise, she served as 
special assistant to U.S. Senator Lamar Alexander, and was 
staff director for the Senate Subcommittee on Children and 
Families.
    Her focus in this Congress has been on education, health 
care, social welfare, and the challenges of working families, 
especially military families.
    And last but not least, Dr. Laurence Steinberg, who is the 
distinguished university professor of psychology at Temple 
University, a nationally recognized expert on psychological 
development during adolescence.
    Dr. Steinberg's research has focused on a range of topics 
in the study of contemporary adolescence, including parent/
adolescent relationships, adolescent employment, high school 
reform and juvenile justice.
    He is a fellow of the American Psychological Association 
and has been a faculty scholar of the William T. Grant 
Foundation, and is currently director of the John D. and 
Catherine T. MacArthur Foundation Research Network on 
Adolescent Development and Juvenile Justice.
    Thank you all for being here. Before the witnesses begin, I 
would like to remind you that we will have an opportunity to 
ask you questions after the panel is through with their 
testimony, and remind you of Committee Rule 2, which imposes a 
5-minute limit on your testimony.
    Your testimony will be submitted fully for the record.
    With that, Mr. Moore.

 STATEMENT OF RICHARD G. MOORE, CRIMINAL AND JUVENILE JUSTICE 
PLANNING DIVISION, IOWA DEPARTMENT OF HUMAN RIGHTS, DES MOINES, 
                               IA

    Mr. Moore. Thank you, Mr. Chairman and Members of the 
Committee. I want to thank you for the opportunity to speak 
here today.
    I am here representing the State of Iowa. I am also here 
representing the Iowa Collaboration for Youth Development.
    I have worked in my state's government for over 26 years. 
Since 1988, I have been the administrator of the Division of 
Criminal and Juvenile Justice Planning. I have been appointed 
to this office by both Democratic and Republican Governors, 
confirmed by Iowa Senate, controlled by both parties, and I am 
just starting my fifth 4 year term.
    I have been actively involved in the planning and 
monitoring of youth policies and programs centered in Iowa's 
juvenile justice, child welfare, substance abuse, mental 
health, workforce development, economic development, volunteer 
services, vocational rehabilitation, public health, public 
safety and other state systems.
    I have had to respond to many different political 
environments and many, many Federal officials, regulations, 
mandates, special conditions and reporting requirements.
    Before I go any further, I do want to applaud your efforts 
to consider the Federal Youth Coordination Act. Its provisions 
are quite simply very good ideas.
    First, I want to make four points. First, there is a 
growing interest in states to do a better job of improving the 
coordination of child and youth policies and programs. The 
impetus of the White House Task Force for Disadvantaged Youth 
and its concerns over the complexity of Federal responses to 
disadvantaged youth are gaining support from outside the 
Federal Government.
    Support for coordinating Government efforts for children, 
youth and families is growing in the National Conference of 
State Legislators, the National Governors Association, and a 
number of foundations and national organizations.
    A number of states currently have children's cabinets and 
other states are working on other such coordinating structures, 
such as Iowa's.
    Iowa's Collaboration for Youth Development is a partnership 
of state and local interests. Our community partners regularly 
remind us that they know better coordination is needed at their 
level to maximize resources and that they are willing partners 
for efforts designed to build bridges between the many separate 
programs and systems that they are expected to make sense out 
of.
    There is interest, and I believe energies not yet fully 
tapped across states to take bigger steps toward achieving more 
coordinated networks of youth programs.
    One thing lacking seems to be a clear national vision that 
includes recognition of how fragmented Federal initiatives can 
hinder emerging and promising state and local coordination 
efforts.
    The Federal Youth Coordination Act, if passed, could 
invigorate current efforts and leverage additional investments 
to improve coordination across the board.
    My second point is collaboration on children and youth 
issues has made an important difference in Iowa. Our 
collaboration is designed to better align state level policies 
and programs and to encourage collaboration among multiple 
state and community agencies.
    Initiated in 1999 with funding from the Department of 
Health and Human Services' Family and Youth Services Bureau, 
FYSB, our state agencies have been partnering with communities 
and youth throughout the state, and we have accomplished a 
number of things.
    We have established a multi-agency state level governance 
structure that supports both individual agencies as well as 
interagency youth initiatives.
    We have agreed upon a common youth results framework that 
multiple state agencies are now using in their administration 
of both Federal and state programs.
    We have established a set of data indicators and providing 
data reports to local communities for their use in planning and 
evaluating their services across systems.
    We have consolidated the planning and application 
requirements for some of our Federal and state programs, so 
communities are developing one rather than two or three plans.
    We have done many other things to increase coordination, a 
few more which I have listed in my written statement, but there 
is more that we know we can do.
    My third point is that support from the Federal Government 
has been instrumental in advancing youth program coordination 
efforts in Iowa. Our collaboration work would not have been 
possible without the assistance of FYSB and funding from their 
Positive Youth Development State and Local Demonstration 
Project.
    Sometimes despite how good an idea might be, it takes 
leadership or recognition from the outside for others to join 
with you. Being able to highlight the Federal Government's 
support of our goals and activities has clearly been an 
important aspect of getting people together to work together.
    We have also benefited from the technical support and 
knowledge of FYSB and its partners. They have given us exposure 
and a chance to meet with experts from across the country and 
to network with other states trying to do similar things as we 
are.
    FYSB's modest investment in our work has led to results 
noticed by others outside of Iowa. We have received financial 
and other supports from the National Crime Prevention Council, 
the Mott Foundation, the National Governors Association, 
America's Promise, the Form for Youth Investment, and others.
    Similarly, using our collaborative entity, we have been 
successful in applying for Federal grants from other than FYSB 
to add to our collaboration's reach and impact.
    Probably the most compelling reason for me to travel from 
the Midwest to speak to you today was my belief that the 
Federal Youth Coordination Act's provisions to assist the 
states in a manner similar to what FYSB has been trying to do 
will help Iowa sustain its efforts.
    My fourth and final point is the Federal Youth Coordination 
Act would have a major impact in Iowa, as well as the Nation as 
a whole.
    It is only in communities that true service coordination at 
the case level can really occur, but local abilities to achieve 
such coordination is limited by state and Federal categorical 
programs that have different sounding goals and that dictate 
separate eligibility criteria, duplicative or disparate program 
or case planning activities, different reporting requirements, 
and so on and so on.
    Community level coordination should be a natural outgrowth 
of coordination at the state and Federal levels. Similarly, 
state level efforts to assist local coordination needs Federal 
leadership to coordinate policies and program requirements from 
the different Federal agencies.
    I am supposed to sum up and be done. Thank you for your 
time and all your efforts.
    [The prepared statement of Mr. Richard G. Moore follows:]

Statement of Richard G. Moore, Criminal and Juvenile Justice, Planning 
       Division, Iowa Department of Human Rights, Des Moines, IA

    Mr. Chairman, Members of the Committee, I want to thank you for the 
opportunity to speak to you on this important topic.
    I am here today representing the State of Iowa. I am also here to 
represent the Iowa Collaboration for Youth Development of which I am 
the convener and a founding member.
    I have worked in my state's government for over twenty-six years. 
Since 1988, I have been the Administrator of the Iowa Department of 
Human Rights Division of Criminal and Juvenile Justice Planning. I was 
initially appointed and twice reappointed to my office by Governor 
Terry E. Branstad. In 1999, my third appointment was continued by 
Governor Thomas J. Vilsack who has since chosen to reappoint me for an 
additional two four-year terms. My appointments have been confirmed by 
Iowa Senates controlled by both parties.
    I have watched or helped the creation, evolution, and sometimes the 
ending of a multitude of state and federal policies and programs 
affecting youth. I have been responsible for the administration of a 
variety of state and federal child welfare and juvenile justice 
programs in Iowa, and I have been actively involved in the planning or 
monitoring of youth policies and programs centered in Iowa's education, 
human services, substance abuse, mental health, workforce development, 
economic development, volunteer services, vocational rehabilitation, 
public safety and other state systems. I have had to respond to many 
different political environments and many, many federal officials, 
regulations, mandates, special conditions and reporting requirements 
affecting programs for youth. Before I go any further I want to applaud 
your efforts to consider the Federal Youth Coordination Act. Its 
provisions are, quite simply, very good ideas.
    In my testimony, I hope to make the following additional points:
    1.  There is a growing interest in states to do a better job of 
improving the coordination of child and youth policies and programs.
    2.  Collaboration on children and youth issues is making an 
important difference in Iowa.
    3.  Support from the Federal government has been instrumental in 
advancing efforts in Iowa.
    4.  The Federal Youth Coordination Act would have a major impact in 
Iowa as well as the nation as a whole.
There is a growing interest in states to do a better job of improving 
        the coordination of child and youth policies and programs.
    The White House Task Force for Disadvantaged Youth found that ``the 
complexity of the problems faced by disadvantaged youth is matched only 
by the complexity of the traditional Federal response to those 
problems. Both are confusing, complicated, and costly.'' Similar 
situations exist at the state level, but we know that better 
coordination can make local responses to the problems of disadvantaged 
youth less confusing, less complicated, and more cost-effective.
    The impetus of the White House Task Force for Disadvantaged Youth 
has already gained support from outside the federal government. Support 
for coordinating government efforts for children, youth and families is 
growing in the National Conference of State Legislators, the National 
Governors Association, private foundations and organizations, and 
states and communities across the country.
    The National Governors Association recently released a report 
entitled ``A Governor's Guide to Children's Cabinets''. This report 
found that ``At least 16 states have a Children's Cabinet, and all 
indications suggest that many others are likely to follow.'' A number 
of states are attempting to support similar coordination structures 
under different names, such as councils, commissions or task forces. 
Our Iowa Collaboration for Youth Development is one example.
    The National Conference of State Legislators and the National 
Governor's Association are currently working together on a youth policy 
initiative to highlight ways state executive and legislative branches 
can work together to promote better coordinated child and youth 
policies.
    Foundations such as Atlantic, Robert Wood Johnson, Kellogg and Mott 
have moved in parallel fashion by investing in collaborative youth-
oriented efforts. Organizations such as America's Promise, the Forum 
for Youth Investment, the National Collaboration for Youth and others 
have geared up to provide technical assistance, networking, and 
visibility to many state and local collaborative efforts.
    Iowa's Collaboration for Youth Development is a partnership of 
state and local interests. The community leaders and agencies with 
which we interact regularly remind us that they know better 
coordination is needed at their level to maximize resources, that they 
are willing to try new ways of providing state and federally funded 
services, that they want to improve their results and become more cost 
effective and that they are willing partners for efforts designed to 
build bridges between the many fragmented programs and systems that are 
in place to help youth and families succeed.
    There is interest-and energies not yet fully tapped-across states 
and in many private organizations as well as in most communities to 
take bigger steps toward achieving more coordinated networks of 
effective youth programs. One thing lacking is a clear national vision 
that includes recognition of how fragmented federal initiatives will 
hinder emerging and promising state and local coordination efforts. 
What does seem clear at this time is that the Federal Youth 
Coordination Act, if passed, could invigorate current efforts and 
leverage additional investments to deepen and advance collaborative 
efforts across the board.

Collaboration on children and youth issues has made an important 
        difference in Iowa.
    The Iowa Collaboration for Youth Development is an interagency 
initiative designed to better align state-level youth policies and 
programs and to encourage collaboration among multiple state and 
community agencies on youth-related issues. Our overarching, multi-
system goals are to increase the extent to which Iowa youth have 
opportunities to be involved, to engage in behaviors that are healthy 
and socially competent, to achieve success in school and to be prepared 
for a career and a productive adulthood. Initiated in 1999 with funding 
from the Department of Health and Human Services' Family and Youth 
Services Bureau, we have been partnering with communities and youth 
throughout the state and have achieved a variety of results.
    We have established a multi-agency state-level governance structure 
that supports both individual agencies' initiatives and interagency 
initiatives related to youth development.
    We agreed upon a common youth results framework that multiple state 
agencies are now using in their planning and monitoring of otherwise 
separate federal and state youth-at-risk programs.
    We have established a set of data indicators, combined resources to 
conduct a statewide survey of youth to establish inter-disciplinary 
measures of youth, school, neighborhood and community risk and 
protective factors, and we have provided local areas with data reports 
designed to assist program planning, coordination and evaluation across 
service systems.
    We have consolidated the planning requirements for some of our 
state and federal programs so local applicants are developing one, 
rather than two or three plans.
    We have established ongoing and regular contacts among staff from 
multiple state agencies and other organizations to proactively identify 
and then carry out collaborative activities, and we have provided teams 
of these state agencies' staff to work with communities as they plan 
and coordinate their use of funding from a variety of local, state and 
federal sources.
    We are supporting a youth development collaboration website and 
newsletter, and we sponsor policy forums and other activities that 
provide information to encourage collaborations across systems and to 
assist efforts that promote and achieve positive youth development.
    We also have combined resources from multiple agencies to provide 
across-systems youth worker and youth leadership training and to assist 
officials and local agencies actively involve youth in planning and 
other civic activities.
    There is much more that we know can be done to better align the 
many youth-oriented policies and programs created or administered by 
the state. Some of the entrenched challenges still face us, and new 
challenges continue to surface.

Support from the federal government has been instrumental in advancing 
        youth program coordination efforts in Iowa.
    Our work through the Iowa Collaboration for Youth Development would 
not have been possible without the help we received from the federal 
Department of Health and Human Services' Family and Youth Services 
Bureau. Iowa is one of a handful of states that was chosen to 
participate in FYSB's Positive Youth Development State and Local 
Demonstration Project. The number of Iowa agencies and organizations 
that have agreed to work together and with FYSB continues to grow, and 
we are developing visible links with more and more communities across 
the state.
    Sometimes, despite how good an idea might be, it takes leadership 
or recognition from the outside to get others to join with you. Being 
able to highlight the federal government's (FYSB's) support of our 
collaboration's goals and activities has clearly been an important 
aspect of our sustenance and progress to date.
    In addition to the funding, we also have benefited from the 
technical support and knowledge of FYSB and its partners. Their support 
has provided us with opportunities to share problems, ideas and plans 
with experts from across the country and has helped us exchange ideas 
and develop networking relationships with other states attempting 
efforts similar to ours.
    FYSB's modest investment of its federal funding in our work has led 
to results noticed by others outside of Iowa. Our collaborative work 
has been fortunate to receive financial and other supports from the 
National Crime Prevention Council, the Mott Foundation, the National 
Governor's Association, America's Promise, the Forum for Youth 
Investment and others. Similarly, using our collaboration as the 
organizing entity, we have been successful in applying for federal 
funding other than FYSB's to add to our collaboration's reach and 
impact.
    Probably the most compelling reason for me to travel from the 
Midwest to speak to you today was my belief that the Federal Youth 
Coordination Act's provisions to assist the states, in a manner similar 
to what FYSB has been trying to do on a limited basis, will help Iowa 
sustain and improve its collaboration's progress in the years to come.

The Federal Youth Coordination Act would have a major impact in Iowa as 
        well as the nation as a whole.
    In Iowa, we are trying to break down barriers between programs that 
can lead to service gaps and overly complex service planning and 
service delivery processes. If a youth has an abusive parent, has 
severe emotional disorders, exhibits behavior problems and is failing 
in school, is abusing substances, and has been committing delinquent 
acts, we should not be intervening with a separate and independent 
response to each of his or her problems. And yet, discipline-specific 
responses are often all that are available.
    We also should not be establishing a separate collaboration at the 
local or state level to address each type of youth-at-risk problem 
area. And yet, that is what federal programs often require states to 
do, and it is often what both state and federal programs require 
communities to do. In Iowa, we pretend to make jokes about ``colliding 
community collaborations,'' but we do this out of frustration and guilt 
and not because we think it is funny.
    It is only in communities that true service coordination at the 
case level can really occur, but local abilities to achieve such 
coordination is limited by state and federal categorical programs that 
have different-sounding goals and that dictate separate eligibility 
criteria, duplicative or disparate program or case planning steps, 
different reporting requirements and so on and so on. Community-level 
coordination should be a natural outgrowth of coordination at the state 
and federal levels. Similarly, state level efforts to assist local 
coordination need federal leadership to coordinate policies and program 
requirements from different federal agencies. And, such federal 
coordination efforts should be undertaken in a way that maximizes 
parallel state coordination capacities.
    This is one of the main reasons I believe the Federal Youth 
Coordination Act would have a major impact in Iowa as well as the 
nation as a whole. Communities and their families and children will 
benefit if federal agencies start doing a better job of coordinating 
their own policies and also provide real supports to state coordination 
efforts and not just mandates or instructions for state-level 
collaborations.
    I'd like to end my comments with one example. States are now 
receiving mandates or guidelines from different federal agencies that 
are meant to assure results-based or evidenced-based or research-based 
youth programs and services. Unfortunately, what such good-sounding 
words mean to one federal agency may not mean the same thing to 
another. Local or state efforts that are attempting to improve 
interventions by coordinating resources from, for example, special 
education funds with mental health funds with substance abuse treatment 
funds with juvenile justice dollars may get stalled over a simple lack 
of agreement on how to define, measure or report program quality.
    This is only one type of issue that we are dealing with in Iowa and 
for which we need help from the federal level to address. This is also 
the kind of problem that I see the Federal Youth Coordination Act can 
help to solve if it is passed and then implemented with care and with 
an eye on the common goals of our many federal, state and local 
programs for children, youth and families.
    In closing, I would like to point out that I have been doing this 
work under both democratic and republican administrations. I see my 
colleagues in other states doing similar work under both democratic and 
republican governors. This is clearly not a partisan issue. Improving 
coordination is an ongoing issue that transcends party lines. Using our 
resources on children and youth in the most effective and efficient 
manner is something all of us can stand behind. It is wonderful to see 
both democratic and republican members of Congress working together on 
this legislation--it reinforces the central collaborative message of 
the legislation itself. This work is long overdue. Please pass the 
Federal Youth Coordination Act.
    Thank you for your time and your efforts to help our nation's 
children.
                                 ______
                                 
    Chairman Tiberi. That was the best I have ever seen.
    [Laughter.]
    Chairman Tiberi. Thank you. Ms. Shubilla.

  STATEMENT OF LAURA SHUBILLA, PRESIDENT, PHILADELPHIA YOUTH 
                   NETWORK, PHILADELPHIA, PA

    Ms. Shubilla. Good morning, Mr. Chairman and Members of the 
Subcommittee. I want to begin by thanking you and the Members 
of the Subcommittee for your leadership on these important 
issues.
    I appreciate this opportunity to describe some of our work 
in Philadelphia for those coordinated multi-agency approaches 
that serve our young people, and to address how the principles 
of the Federal Youth Coordination Act can assist local effort.
    I will also reflect on how our work mirrors and reinforces 
some of the key principles of the report of the White House 
Task Force for Disadvantaged Youth, as well as a memo initiated 
by the Campaign for Youth that supports the Federal Youth 
Coordination Act and other important youth policies.
    Let me start by sharing some good news. In Philadelphia, we 
are making real progress and building bridges across programs 
and agencies in pursuit of a coordinated system of youth 
services.
    To a considerable extent, our successes have their roots in 
the implementation of the Workforce Investment Act. I believe 
that in many ways, we have done what the Congress expected us 
to do when WIA was passed back in 1998, by bringing together 
senior officials from the school district, the city's child 
welfare agency, the family court, together with leading 
employers, university officials, and youth advocates.
    We have created our own local youth development council. We 
have developed Workforce Investment Board sponsored requests 
for proposals for comprehensive youth services that incorporate 
investments from Federal programs, foundations, the school 
district, and private employers.
    Rarely is an RFP released in Philadelphia that does not 
incorporate funding from more than one source. This has not 
always been the case.
    We have used Chafee, TANF and Workforce Investment Act 
support for neighborhood based youth centers that provide 
education, training and employment services for out of school 
youth, court involved youth, and youth aging out of the foster 
care system.
    We have coordinated Workforce Investment Board, city and 
school district funding to support small alternative high 
schools designed to address the needs of struggling students 
and out of school youth.
    We are proud of our history of collaboration. However, the 
fact remains that differing definitions, eligibilities and 
outcomes that characterize much Federal youth programming 
continues to present significant challenges for youth and their 
families as they attempt to assess needed programs and 
services, and for local leaders as they attempt to collaborate 
and leverage resources.
    Yesterday was an interesting example of this for me. In the 
morning, I received a call from a young woman nearly in tears 
from frustration, trying to go back to school, find work, and 
get in touch with other services that she needed. Her refrain 
throughout the entire conversation was I'm really, really 
trying, I promise.
    Then in the afternoon, my colleagues and I spent several 
hours discussing an intake system for our new youth system, 
that would be responsive to four funding sources included in 
the center, that would not require youth, like the young woman 
I just spoke about, to be overwhelmed by paperwork and 
eligibility criteria.
    Whether it is designing procedures or supporting the young 
man I met recently who came back from a juvenile detention 
facility with 9 months of academic work that did not translate 
into high school credit, we simply have to do a better job of 
making these systems more transparent and accessible.
    That is why I believe the Federal Youth Coordination Act 
represents such an important opportunity. With the help of the 
Youth Development Council and input from state and local 
practitioners, I believe that many of these challenges can be 
overcome.
    A final big picture thought on cross program coordination 
and communication. The kinds of positive pathways we are trying 
to produce for struggling students and out of school youth 
should be part of the national conversation on high school 
reform.
    As we re-engineer the educational system, if we ignore the 
youth who are already disengaged from it or have one foot out 
the door, which can be half of all high school young people in 
some communities, then we have already written off hundreds of 
thousands of the very young people our programs are attempting 
to serve.
    My second point is the power of work and other real world 
learning experiences for youth, and the support that they need 
at a local level to make sure that we can provide these 
opportunities for as many youth as need them.
    Using the Workforce Investment Board and its Youth Council 
as a platform, we have created a city-wide system for youth 
workforce development that we call WorkReady Philadelphia. 
Through WorkReady, we have built an expanding network of 
committed employers that hire hundreds of young people each 
year in unsubsidized internships.
    We have seen major corporations like Lockheed-Martin, 
Citizens Bank, Lincoln Financial Group, and Independence Blue 
Cross make major contributions of time, energy and money to 
support work experiences for disadvantaged youth.
    Our experience underscores the value of collaboration on 
model programs and projects that focus on special populations, 
which would be a key role of the Federal Youth Coordination Act 
Youth Development Council.
    Once again, there is more we could and should be doing. 
Therefore, the creation of the Youth Development Council could 
also be of immense help by identifying employer incentives to 
hire and mentor young people, supporting intermediaries that 
connect employers to youth in schools, supporting 
transportation and other support services that enable youth to 
participate in work and service, and expand entrepreneurial 
opportunities for young people.
    My final point, Mr. Chairman, is the importance of 
believing in our young people. Contrary to public perception, 
most of our youth desperately want to be productive and do in 
fact aspire to a better life.
    In Philadelphia, we know these young people, and we know 
that not only do they want to succeed, but they have the 
potential and the ability to do so.
    We appreciate your leadership on this issue, and we hope 
that if your Act is passed, that you will continue to provide 
leadership, to make sure that the kinds of things that you 
envision in this Act actually are implemented to the agencies.
    Thank you.
    [The prepared statement of Ms. Laura Shubilla follows:]

  Statement of Laura Shubilla, President, Philadelphia Youth Network, 
                            Philadelphia, PA

    Good morning. Mr. Chairman and members of the Subcommittee on 
Select Education, my name is Laura Shubilla, President of the 
Philadelphia Youth Network. It is my privilege to appear before you 
this morning to discuss Philadelphia's work to build coordinated, 
multi-agency approaches that serve our young people, and to address how 
the principles of the Federal Youth Coordination Act can assist local 
efforts. I will also reflect on how our work mirrors and reinforces 
some of the key principles of the White House Task Force on 
Disadvantaged Youth, including efforts to establish coordination across 
federal programs, as well as a memo initiated by the Campaign for Youth 
and signed by over 250 organizations supporting the Federal Youth 
Coordination Act and other important youth policies. Finally, I will 
offer suggestions to the Committee concerning recommendations for your 
consideration that can help us to produce better outcomes for our young 
people.
    While I am here today speaking on behalf of the Philadelphia Youth 
Network, I want to acknowledge the thousands of organizations and 
individuals across the country that work tirelessly to address the 
needs of our young people. I hope that in presenting our experience in 
Philadelphia, we honor and, at least in some small way, represent their 
efforts as well.
    Let me begin by recognizing and thanking the Subcommittee for its 
leadership in holding this hearing on such a vital issue. The Report of 
the White House Task Force for Disadvantaged Youth and the Federal 
Youth Coordination Act are powerful testaments to the importance of 
this topic. Rarely do social, economic and moral imperatives align so 
clearly, and urge our attention and action. Therefore, the Committee's 
focus is both timely and extraordinarily important. I hope that this 
hearing will be the first of many that will bring much needed attention 
to the needs of some of our most vulnerable youth, and also shed light 
on the great potential that these young people have to become active 
and productive citizens who can help to drive the nation's future 
growth.
    The Philadelphia Youth Network is a non-profit youth intermediary 
organization that oversees approximately $18M annually from government, 
foundation and private investments, dedicated to providing programs and 
services to almost 10,000 young people each year through WorkReady 
Philadelphia, our City's comprehensive youth workforce system. We 
manage Workforce Investment Act (WIA) youth funding under contract to 
the Philadelphia Workforce Investment Board and staff its Youth 
Council. We also oversee internships supported by the William Penn 
Foundation and other area philanthropies, and are privileged to serve 
as the managing partner for Philadelphia's Youth Transition Funders 
Group program, supported by the Gates, Carnegie, Mott and William Penn 
Foundations, that promotes enhanced opportunities for struggling 
students and disconnected youth. I will focus my remarks on specific 
aspects of Philadelphia's cross-sector collaboration, and suggest how 
Congressional action could strengthen our efforts.
    I would first like to emphasize the clear need for greater 
coordination, flexibility and communication within and between major 
youth-oriented public programs, including education, workforce 
development and juvenile justice. Our Philadelphia experience 
underscores the importance of such efforts, and clearly reinforces the 
topic of coordination being addressed today.
    Leaders in Philadelphia have worked very hard to use all available 
program flexibility to bring together a wide variety of system partners 
that invest funds from City government, the school district, local 
foundations and private employers, with the goal of serving all youth 
within one comprehensive system. I'll give you several examples of how 
we do this:
    (1)  First, the advent of WIA enabled the City to build a network 
of partners, including the schools, juvenile justice and foster care 
agencies, to focus on the needs of disconnected youth with the goal of 
identifying approaches that are both more efficient and more effective. 
In fact, the Workforce Investment Board (WIB)  and its Youth Council 
issue requests for proposals that leverage multiple funding streams, 
e.g. WIA, Temporary Assistance for Needy Families (TANF), school 
district, foundation and private sector dollars, to provide services 
critical to reengaging disconnected youth in education and employment, 
and preparing these young people for success in education, employment 
and life. This is the type of collaboration that the Federal Youth 
Coordination Act can identify and encourage.
    (2)  We are working closely with the City's school system to align 
and integrate our efforts in support of disconnected youth with broader 
high school reform activities, including joint planning of smaller, 
alternative high schools, and efforts to ensure that academic programs 
at juvenile placement facilities are aligned with school district 
standards so that youth receive credit for their work when returning to 
high school. Furthermore, because the school district values the rigor 
of programming offered through WIB and Youth Council funding, more than 
32,000 Philadelphia youth have received academic credit for work 
completed during their summer and year-round programs funded by WIA and 
TANF.
    (3)  WIA funding is also being utilized to support organizations 
who are administering schools for over-age, under-credentialed youth 
and former dropouts who are trying to return to earn a high school 
diploma. This funding augments school district dollars, and enables 
organizations to provide much needed employment and wrap-around 
services that are often critical to success.
    (4)  Through leadership of the City's Department of Human Services 
and the WIB, we are pooling funding from multiple sources, e.g. WIA, 
TANF and Chafee program grants, to support youth centers where we 
provide access to work experience, education and training for out-of-
school, court-involved and foster care youth.
    (5)  As part of our Youth Transitions Funders Group grant, 
Philadelphia is looking closely at strategies to better serve low 
literate learners in traditional and non-traditional settings. We have 
found that literacy is often the critical barrier for youth seeking to 
reconnect to education or training programs. This effort will yield 
lessons and best practices for working with older youth, and has the 
potential to provide important professional development models for 
educators.
    (6)  Also with support from the William Penn Foundation and the 
Youth Transition Funders Group, Philadelphia is pursuing data 
integration strategies that will analyze youth information across the 
School District and all relevant city agencies to better define the 
scale and characteristics of the out-of-school youth population. One 
key aim of this discussion is to understand and address the differing 
definitions for dropouts and out-of-school youth that have the 
potential to hamper access to needed programs and services. In this 
regard, we applaud efforts by the National Governors Association to 
build support for uniform definitions of high school graduation and 
dropout status.
    (7)  Additionally, while we are discussing coordination, I would 
like to mention the needs of Philadelphia's 1,000 youth who each year 
exit juvenile placement facilities, and that action on the bipartisan 
Second Chance Act would strengthen collaboration between state and 
local youth-serving systems to support their successful reintegration 
into their communities.
    We are proud of our history of collaboration and are eager to share 
with other localities what we have learned about leveraging funds to 
reconnect youth to positive pathways. However, the fact remains that 
the differing definitions, eligibilities and outcomes that characterize 
much federal youth programming continue to present significant 
challenges for youth and their families as they attempt to access 
needed programs and services. We simply have to do a better job of 
making these systems more transparent and accessible.
    To this end, I believe that the Federal Youth Coordination Act 
represents an important opportunity to rationalize eligibility 
requirements, programmatic definitions and performance measures that 
too-often preclude the kinds of efficiencies that we all want to see in 
public programs. Clearly, the Act's Youth Development Council would be 
an excellent vehicle to address this goal.
    In a broader sense, I also urge that the Subcommittee consider the 
issues of disconnected youth as an integral part of overall high school 
reform efforts. At present, the state- and national-level high school 
reform conversations are focused on increasing academic rigor, which is 
a laudable goal and critical for every student. But we must ensure that 
schools, districts, and states are held accountable for improving 
graduation rates as they work to improve academic achievement. Efforts 
towards this goal could be enhanced by strategies and incentives for 
school districts to engage multiple partners and funding streams to 
create menus of educational options designed for all youth, with 
particular attention to appropriate learning environments for students 
who are struggling, who have multiple barriers to success, and for 
those who have disconnected but wish to re-engage.
    Finally on this point, even the most effective, efficient and 
collaborative approach to youth service delivery cannot overcome 
chronic under-funding of programs and services for disconnected youth. 
Therefore, appreciating the profound fiscal challenges faced by the 
Congress and the Administration, I hope that you will find the means to 
make levels of public investment that would enable us to expand efforts 
to help more disconnected youth successfully enter our nation's 
economic mainstream.
    My next point concerns Philadelphia's successes in building cross-
sector partnerships to provide work experience and service 
opportunities for disadvantaged youth. Our experience underscores the 
value of public agency collaboration on model programs and projects 
that focus on special populations, which is a key role of the Youth 
Development Council that would be authorized by the Federal Youth 
Coordinating Act.
    Research demonstrates conclusively that work experience during the 
high school years yields long-term employment and earnings benefits. In 
Philadelphia, we have seen first hand the power that work and service 
can have to create life-changing benefits for young people. Our 
WorkReady Philadelphia campaign has produced numerous examples of area 
employers, city government, foundations and community organizations 
mobilizing to host interns and provide employment support to more than 
6,000 young people each year. A few examples include:
    (1)  Lockheed Martin Integrated Systems and Solution has hired 
three dozen IT registered apprentices, recruited from students enrolled 
in a half-dozen Philadelphia high schools;
    (2)  St. Christopher's Hospital for Children has an extraordinary 
program that has introduced hundreds of local high school students to a 
range of health-related occupations, and has been responsible for 
inspiring dozens of young people to pursue health careers;
    (3)  Citizens Bank and Lincoln Financial Group have offered dozens 
of young interns opportunities for summer employment and have 
contributed over $100,000 to support aspects of WorkReady Philadelphia; 
and
    (4)  We are working with Philadelphia's Coca-Cola Bottling Company, 
Herr's Snack Foods and ShopRite Stores to design a secondary 
merchandising enterprise that will prepare out-of-school youth and 
juvenile offenders for jobs and careers in a number of related 
industries.
    If the Federal Youth Coordination Act is passed, it would provide a 
mechanism, via the Youth Development Council, for sharing information 
on Philadelphia's successes and lessons learned, including the 
WorkReady Philadelphia model for possible dissemination to other states 
and localities.
    While the power of work for youth is clear, research also tells us 
that young people in urban and rural areas too often face challenges in 
finding jobs and therefore lose out on its potential benefits. We 
experience this directly in Philadelphia, as we are forced to turn away 
thousands of young people each year who seek jobs but can't be 
accommodated for want of funded slots. Therefore, the Youth Development 
Council could also provide invaluable assistance by:
    (1)  Identifying employer incentives to hire and mentor young 
people;
    (2)  Supporting intermediaries and other organizations that connect 
employers to youth and schools;
    (3)  Supporting transportation and other support services that 
enable youth to participate in work experience, community service and 
service learning, and other forms of field-based learning that have 
such powerful benefits; and
    (4)  Expanding entrepreneurial opportunities that have the 
potential both to provide work experiences for our youth and to produce 
valuable community services or products.
    In conclusion, Mr. Chairman, let me share what I believe is perhaps 
the most important underlying message of our work. Contrary to public 
perception, most of these youth desperately want to be productive, and 
aspire to a better life. In Philadelphia, we know that these young 
people not only want to succeed, but that they have the potential and 
ability to do so. We know this because:
    (1)  More than 15,000 young people each year seek summer and year-
round programs through WorkReady Philadelphia, far more than can 
possibly be served with available resources. These young people produce 
remarkable projects and portfolios that earn them academic credit 
towards high school graduation, and result in valuable work experience 
and employer connections;
    (2)  Young people participating in WIA-funded and other WorkReady 
Philadelphia programs design and administer a Youth Satisfaction Survey 
to their peers, in order to elicit recommendations that enable funded 
agencies to continue to make improvements in their programs;
    (3)  Hundreds of out-of-school youth enroll in our neighborhood 
based youth centers eager to improve their employment and earnings 
prospects through work experience, education and training; and
    (4)  When given the chance, literally thousands of former high 
school dropouts return to alternative educational opportunities because 
experience has taught them how much they need a high school credential 
and additional education to earn a living. For example, when three 
small alternative high schools opened recently, with the capacity to 
serve 450 students, they were deluged with almost five times that many 
applications for admission.
    These are but a few examples of young people who are seeking to 
learn, earn and grow into productive employees and self-sufficient 
citizens.
    Your voices can contribute immeasurably to the public discussion on 
these issues by delivering this essential message about young people. 
Please use every available opportunity: every relevant piece of 
legislation, every town meeting, every speech; to counter the 
prevailing stereotypes of our young people and to express the reality 
that they have the potential to become the active and productive 
citizens that we all want and need them to be.
    Furthermore, please continue to lend your leadership to the Act 
once it is passed. The only way that The Federal Youth Coordination Act 
will be effective is if leadership from each agency sends 
representatives who are willing to understand each other's systems and 
navigate the various governing rules and regulations to actually 
implement the desired changes. This leadership will need to be ongoing 
and persistent as this kind of system integration takes patience and 
creativity. If our experience in Philadelphia has taught us nothing 
else about systems coordination, it is that a few determined people in 
each agency can make great things happen.
    Thank you, Mr. Chairman and Members of the Subcommittee, for the 
opportunity to appear before you to discuss the need to promote 
collaborative, multi-partner approaches for disconnected youth. Our 
Philadelphia experience validates and strongly reinforces the Federal 
Youth Coordination Act's goal to strengthen coordination and 
communication across federal, state, and local government agencies and 
funding streams. I applaud your efforts, and look forward to working 
with you to elevate these issues, and to help our young people to 
realize their potential as involved and contributing citizens.
                                 ______
                                 

                     Memo on Reconnecting Our Youth

               from A Coalition of Voices from the Field

    The undersigned organizations represent youth practitioners, policy 
makers, educators, advocates, community and faith-based institutions, 
and others who are concerned about the future for the millions of young 
people who have fallen outside of the education and labor market 
mainstreams with little opportunity to reconnect. As a coalition we 
elevate this situation to the President's attention and advance a set 
of recommendations. We stand willing to work with the President, his 
administration, and the Congress to advance an agenda that will restore 
hope and promise to these youth.
NATIONAL AND REGIONAL
Academy for Educational Development: Center for Youth Development and 
Policy Research
Alliance for Children and Families
Alliance for Excellent Education
American Youth Policy Forum
Big Brothers Big Sisters of America
Camp Fire USA
Center for Law and Social Policy
Chesapeake Center for Youth Development
Child Welfare League of America
Coalition for Juvenile Justice
Coalition of Community Foundations for Youth
Connect for Kids
Council of Juvenile Correctional Administrators
Eckerd Youth Alternatives
Education Works
Forum for Youth Investment
Friends of the Children
Jobs for the Future
Justice Policy Institute
Kids Project
Learning Disabilities Association of America
National Association of Service and Conservation Corps
National Association of Street Schools
National Association of Students Against Violence Everywhere
National Association of Youth Service Consultants
National Collaboration for Youth
National Council on Employment Policy
National Education Association
National Foster Care Coalition
National Independent Living Association
National Institute on Out of School Time
National Mental Health Association
National Network for Youth
National Organization on Adolescent Pregnancy, Parenting and Prevention
National Partnership for Careers in Law, Public Safety, Corrections and 
Security
National Youth Advocate Program
National Youth Employment Coalition
National Youth Leadership Council
New England Network for Child, Youth & Family Services
New Ways to Work
Northwest Youth Corps
Pacific News Service/New California Media
Puerto Rican Youth Development and Resource Center, Inc.
Sar Levitan Center for Social Policy Studies
School Social Work Association of America
Search Institute
Society for Research in Child Development
SOS Children's Villages-UAS
The Council for Parent Attorneys and Advocates, Inc.
The First Place Fund for Youth
US Conference of Mayors
Western States Youth Services Network
Youth Build USA
Youth Development Institute
Youth Law Center
Youth Service America
STATE, TRIBE, AND LOCAL
Alaska
Alaska Youth Corps
Serve Alaska Youth Corps
Southeast Alaska Guidance Associations/Serve
Arizona
Children's Action Alliance
Coconino County Juvenile Court Services
Run Drugs Out of Town Run, Inc.
Youth Corps of Southern Arizona
California
Bridge of Faith
California Conservation Corps
California Youth Connection
Conservation Corps of Long Beach
Diogenes Youth Services, Inc.
Fresno County Economic Opportunities Commission
Los Angeles Youth Network
Marin Conservation Corps
Orange County Conservation Corps and YouthBuild Program
Reality House West, Inc.
Riverside County Economic Development Agency
Sacramento Local Conservation Corps
San Jose Conservation Corps
Southwest Youth Corps
Tulare County Conservation Corps
Thomas Jefferson Youth Organizers
Workforce Development Board of Riverside County
Youth Justice Coalition
Colorado
Colorado Youth Corps Association
Larimer County Youth Conservation Corps
Mile High Youth Corps
Southwest Youth Corps
Urban Peak
Western Colorado Conservation Corps
Connecticut
Connecticut Association of Nonprofits
Lighthouse After School Program
Pride Cultural Center
Southend Community Services, Inc.
United Services, Inc.
District of Columbia
City Year Washington DC
Washington Partners, LLC
Florida
Centro Campesino Farmworker Center Inc.
Florida's Children First
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="88c3e1ecfbc8c0e7e5ed">[email&#160;protected]</a>, Inc.
The Children's Services Council of Broward County
The Children's Trust
Westcoast School for Human Development
Georgia
Barton Child Law and Policy Clinic
Communities in Schools of Colquitt County, Inc.
Fulton Atlanta Community Action Authority, Inc.
Southern Juvenile Defender Center
United Way of Metropolitan Atlanta
Hawaii
Hale 'Opio Kaua'I
Illinois
Cabrini Connections
Comprehensive Community Solutions, Inc.
Emerson Park Development Corporation
Futures Unlimited, Inc.
Prologue Westside Youth Build
Uhlich Children's Advantage Network
Youth Conservation Corps, Inc.
Indiana
Crisis Center, Inc
Indiana Juvenile Justice State Advisory Group
Indiana Juvenile Justice Task Force, Inc.
The Incorporated Concord School
Kansas
Children and Family Services
Louisiana
NZBC Urban Corporation
Maine
Maine Children's Alliance
Maine Independence Corps
Maryland
Advocates for Children and Youth
Community Coalition for Education Options
Mental Health Association of Montgomery County
Public Justice Center
Massachusetts
Cambridge Housing Authority
Center for Youth Development and Education
Youth Voice Collaborative, YWCA Boston
YWCA of Western Massachusetts
Michigan
Albion Community Foundation
Michigan Council on Crime and Delinquency
Michigan's Children
Michigan League for Human Services
Sault Ste. Marie Area Public Schools
Sault Tribe Youth Education & Activities
Minnesota
Achieve! Minneapolis
Hearthstone of Minnesota
McLeod Treatment Programs, Inc.
Minnesota Conservation Corps
Minnesota Council on Child Caring Agencies
Workforce Development, Inc.
Youth and Adult Programs, Orono Community Education
Mississippi
AIRS
Missouri
Accion Social Comunitaria
Citizens for Missouri's Children
Operation Weed & Seed
Youth Education and Health in Soulard
Montana
Discovery House
Montana Conservation Corps
Nebraska
Interchurch Ministries of Nebraska
Panhandle Community Service
Nevada
Southern Nevada Workforce Investment Board
New Hampshire
Kearsarge Assets Network, Inc.
Odyssey House Executive Offices
Odyssey Youth Rebuild
New Jersey
Gloucester County Economic Development Workforce Investment Board
New Jersey Youth Corps of Trenton
The Work Group
Volunteer Center of Monmouth County
New Mexico
Education and Workforce Consultants
Forest Guild
Indio Hispano Academy of Agricultural Arts & Sciences
Pueblo of Acoma
New York
Advocates for Children of New York, Inc.
Buckeye Community Hope Foundation
Chautauqua Home Rehabilitation and Improvement Corporation
Community of Unity
EAC, Inc.
Empire State Coalition of Youth and Family Services
Family Recovery Center
Good Shepherd Services
Neighborhood Family Services Coalition
Niagara County Workforce Investment Act Youth Council
Niagara County Youth Bureau
Schenectady County Center for Juvenile Justice
Lighthouse Youth Services
West Seneca Youth Bureau
WSOS Community Action Commission, Inc.
Youth Communication/New York
Youth Resource Development Corporation
North Carolina
Haven House
Ohio
Juvenile Justice Coalition of Ohio
Native Village Publications
Ohio Youth Advocate Program
Oregon
Juvenile Rights Project
Washington
Northwest Service Academy
Pennsylvania
Episcopal Community Services
Pathways
Philadelphia Citizens for Children and Youth
Philadelphia Youth Network
South Carolina
Communities in Schools of Lancaster
Sumter County YouthBuild
Tennessee
Jackson State Community College
Memphis Shelby Crime Commission
Memphis Ten Point Coalition
Texas
American YouthWorks
Communities in Schools--Central Texas Inc.
Houston Metropolitan Federation of Families for Children's Mental 
Health
Montgomery County Youth Services
St. Jude's Ranch for Children
Texas Network of Youth Services
Youth Works! Goodwill Industries, Central East Texas
Utah
Canyon County Youth Corps
Utah Conservation Corps
Vermont
Brattleboro Area Affordable Housing Corporation
High 5 Adventure Learning Center
Leland & Gray Union High School
Recycle North
Vermont Coalition of Runaway and Homeless Youth Programs
Windham Child Care Associate
Youth Initiative Coordinator
Virginia
Petersburg Urban Ministries
Prince &Princess, Inc.
Virginia Council of Churches
Youth Works!
Wyoming
Wyoming Children's Action Alliance, WY
Washington
Chase Youth Commission
Civic Works, Inc
Clarion County Children and Youth Services
Community Programs, Shoreline Community College
Friends of Youth
Neighborhood House
Northwest Youth Services
2 Designs, Inc.
United Way of Kitsap County
Workforce Development Council (WDC) of Seattle-King County
INDIVIDUALS
Jerry Bennet
Ana Castaneda
Robert Dobmeier
Audrey Corder
Sarah Edwards
Lori Greenberg
Annie Guyton
Heather Ford
Joe Higgins
Curt McDermitt
Molly Shephard
Pat Stephens
Julie Stevermer
Chris Sturgis
Dr. Sue Tenorio
Coordinated by the Campaign for Youth
                                 ______
                                 
    As President Bush begins his second term, he has indicated a strong 
interest in reforming the nation's secondary schools to ensure that 
every high school student graduates with proficiencies that will enable 
them to succeed. The undersigned organizations support the President's 
vision, and ask that he also commit to reforms that will improve the 
well-being of America's youth, in particular those who are the most 
vulnerable and disconnected.
    This memo outlines a series of recommendations, many of which can 
be implemented within existing statutory and budget authority, to help 
the nation's most valuable resource our youth--develop into successful, 
self-sufficient adults. Nevertheless, we also recognize that many of 
the federal programs that support the transition of disadvantaged youth 
to productive adulthood are inadequately funded, leaving many eligible 
and needy youth unable to access the services, education, and supports 
requisite to successful transition.
    According to the White House Task Force for Disadvantaged Youth 
(April 2003), the National Academy of Sciences estimates that one-
quarter of the adolescents in this country are at serious risk of not 
achieving productive adulthood. Nationally, 3 out of 10 young people 
who enter public high school do not graduate four years later. The 
graduation rate is only 50% for Hispanic, African American, and Native 
American youth. This situation is especially devastating in poorer 
urban and rural communities.
    Far too many young people are in danger of being left behind. Many 
of these young people are already in the public's care in the foster 
care and/or the juvenile justice systems.
    Over time, secondary school reform and innovation should transform 
the landscape of education delivery. Until then, each year more than a 
half-million youth will leave school without a high school diploma, the 
necessary skills to compete in the labor market, or the community 
supports they need to constructively engage with mainstream America. 
They will join the approximately 3.8 million youth between the ages of 
16 and 24 who have already dropped out and are faring poorly in the 
labor market and in their communities.
    Contrary to public perception, most of these youth desperately want 
to be productive, and aspire to a better life.
    As a country we have the knowledge and the technology to close the 
skills gap and racial disparities that have persisted for far too long. 
It takes political leadership, effective policies, and smart 
investments in our young people to harness their energy and empower 
them with the competencies to contribute to our economic engine.
    Our country cannot afford to allow so many youth to linger outside 
the mainstream economy, without the skills and supports they need to 
succeed. Effective reform must include expanding the boundaries of the 
traditional education system to engage communities, parents, employers, 
and other sectors in developing effective pathways and supports to help 
students remain in school and, just as important, reconnect those who 
have dropped out but need a second chance.
    The President has made clear his commitment to leave no child 
behind. As he turns his attention to our high schools, he can send a 
powerful message that he has high expectations for every student. He 
can command attention from all levels of government and from American 
families, faith- and community-based organizations, and employers to 
extend their stewardship to find effective community-based solutions to 
this most pressing problem.
    Our coalition of organizations stands ready, willing, and able to 
work with the President to help all young people reach their full 
potential. We ask for the President's consideration and support for the 
following recommendations.
    <bullet>  Use the Presidential ``bully pulpit'' to set a national 
goal to Reach Out and Reconnect our youth
    <bullet>  Establish an interagency National Youth Development 
Council, as recommended by the White House Task Force Report for 
Disadvantaged Youth
    <bullet>  Improve youth services through better outcomes evaluation 
and accountability
    <bullet>  Establish flexibility in public education funds for 
disadvantaged youth, to enable enrollment in the most appropriate 
educational environments
    <bullet>  Use the reauthorization of key federal programs to 
strengthen supports for youth transitioning to adulthood.
    <bullet>  Expand opportunities for youth to engage in community 
service and work experience
    <bullet>  Provide incentives and technical support to increase 
employer participation in developing internships, pipelines and 
intermediaries

Use the presidential ``bully pulpit'' to establish a goal to Reach Out 
        and Reconnect our youth
    By setting goals for reforming the American high schools, President 
Bush can send a clear message that our nation is committed to providing 
opportunity and support for all young people who want to constructively 
engage in their communities, better their academic skills, and be part 
of a skilled workforce. The President can ask for the active 
participation of governors, municipal leaders, business leaders, 
community and faith-based-organizations, and citizens in making sure 
our high schools are equipped to serve struggling students and our 
communities stand ready to re-engage students who need another chance 
to get on track.

Establish a National Youth Development Council
    The White House Task Force Report on Disadvantaged Youth found 
fragmentation among the various federal youth funding streams and in 
service delivery for disadvantaged youth. Lack of coordination among 
the Departments of Labor, Education, Health and Human Services and the 
Justice Department all of which have programs and policies that serve 
disadvantaged youth--makes it difficult for state and local programs to 
blend funding streams and organize service delivery at the community 
level. There are built-in disincentives for local coordination in the 
regulations and policies set by the federal departments, and the work 
of sorting them out at the state and local level is difficult. A 
National Youth Development Council, that brings together the agency 
Secretaries, representatives from the youth services field, employers, 
representatives from local government, and youth can serve to:
    <bullet>  Keep attention focused on the issues of disadvantaged and 
disconnected youth, set national priorities, measure progress on key 
indicators, and make policy recommendations to the White House
    <bullet>  Establish specific task forces or advisory committees, 
which include meaningful youth representation, to focus on the most 
pressing issues (in particular, systemic issues and policies that 
contribute to disparate outcomes for youth in certain subgroups) and 
foster cross-sector participation in advancing solutions
    <bullet>  Facilitate ongoing federal inter-departmental 
collaboration and inter-agency responses to relax the federal 
bureaucracy and promote the flexibility needed for more responsive 
solutions
    <bullet>  Provide interagency support for state and local 
government efforts to assess youth-related policies, programs, funding 
streams, indicators, and data in order to create and implement 
strategic plans for coordinated investment of federal, state, and local 
dollars to improve outcomes for youth
    The Federal Youth Coordination Act (H.R. 856 or S. 409) bipartisan 
legislation to implement this and other recommendations of the White 
House Task Force Report was introduced in the 109th Congress by 
Representatives Tom Osborne (R-NE), Pete Hoekstra (R-MI), Donald Payne 
(D-NJ) and Harold Ford (D-TN) in the House and Senators Norm Coleman 
(R-MN), Mike DeWine (R-OH) and Lamar Alexander (R-TN) in Senate. White 
House support for this bill would bring about greater coordination and 
accountability among the federal agencies serving youth.

Improve youth services through better evaluation and accountability
    Requiring high schools, foster care and juvenile justice agencies, 
and other federally funded agencies serving disadvantaged youth to 
publicly report their demographics, service levels, expenditures and 
outcomes would enable local communities to assess the magnitude of the 
problem, system performance and who is--and is not--effectively served, 
and monitor improvement over time. We recommend the following:
    <bullet>  Develop a uniform definition for measuring graduation and 
drop-out rates for local high schools, alternative schools, charter 
schools, school districts, and states. Establish accountability 
measures under the No Child Left Behind Act related to graduation rates 
and hold states and local systems accountable for making progress 
towards those benchmarks for all youth.
    <bullet>  Require states to monitor policies and practice that 
result in youth being ``pushed out'' or disproportionately tracked to 
inappropriate educational alternatives
    <bullet>  Require HHS to implement the National Youth in Transition 
Data System (the accountability system for the John H. Chafee Foster 
Care Independence Program as mandated by the Foster Care Independence 
Act of 1999)
    <bullet>  Provide both incentives and sanctions to state and local 
child welfare and juvenile justice systems to ensure effective 
transitional services, including the requirement that at key risk 
points and before a youth is discharged, there are explicit transition 
plans to connect youth to key education, training, housing, and support 
services
    <bullet>  Continue to support the Runaway, Homeless, and Missing 
Children Protection Act of 2003, ensuring implementation of the 
provision requiring HHS to coordinate with the U.S. Interagency Council 
on Homelessness to develop a Report on Strategies to End Youth 

Homelessness
Establish flexibility in federal public education funds for 
        disadvantaged youth, to enable enrollment in the most 
        appropriate education environments
    High schools must be reconfigured to inspire and retain students, 
support those who are struggling , remove the barriers to re-enrollment 
for youth who have dropped out, and create non-traditional alternatives 
for youth who can benefit from and choose to enroll in smaller, more 
supportive environments. Students who drop out can often be re-engaged 
and better served in alternative settings, like community-based 
academic and experiential learning programs with a demonstrated ability 
to achieve high school certification for these youth. Introducing 
accountability and flexibility in financing alternative education 
opportunities for older youth can allow more communities to work with 
their local districts to develop alternate pathways to labor market 
success for out-of-school youth.
    <bullet>  Provide incentives and technical assistance to enable 
public education funds (federal, state, and local) to be directed to 
bona fide education programs operated by qualified community-based 
organizations, community colleges and other entities that are better 
suited to serve the complex education, training, and support needs of 
youth seeking to reattach at the secondary level
    <bullet>  Strengthen the capacity of the Department of Labor (in 
conjunction with the Department of Education) to focus on community-
based alternative education strategies with special attention to 
effective instructional technologies, delivery methods, workforce 
connections, and performance accountability
    <bullet>  Invest in a knowledge development effort to identify the 
type of instructional technologies and interventions that work for 
youth with low literacy levels, and facilitate the expansion of such 
programs
    <bullet>  Synchronize the performance expectations for youth served 
by the adult education system and the Workforce Investment Act system 
to remove the disincentives to blending funding in the service of youth 
with extremely low literacy levels

Use the reauthorization process to strengthen systems to support youth, 
        especially those at risk, in successfully transitioning to 
        productive adulthood
    There are many key federal programs that support the transition of 
youth to productive adulthood. Several of these programs will be up for 
reauthorization in the next Congress. The recommendations offered below 
would improve these programs, and better enable the productive 
engagement of our nation's youth and a skilled workforce for employers.
    Higher Education Act. Strengthen the ability of the community 
college system to serve as a bridge for out-of-school youth seeking to 
gain marketable skills and academic skills for success in post-
secondary education. There are promising community college-based models 
that allow drop-outs to accrue credits towards high school and post 
secondary credentialing, sometimes concurrently.
    <bullet>  Strengthen the ability of the TRIO programs to provide 
college preparatory assistance to disadvantaged high school students 
and out-of-school youth enrolled in alternative community-based 
programs
    <bullet>  Open access to higher education funding for high school 
drop-outs who can demonstrate the ability to benefit from post-
secondary education and training; expand the definition of ``ability to 
benefit,'' as proposed by the National Association of Student Financial 
Aid Administrators, to include individuals without a high school 
diploma who have successfully completed six units of college courses
    <bullet>  Adopt alternative measures for determining institutional 
eligibility for student aid that do not discourage the enrollment of 
disadvantaged or higher-risk youth, rather than relying solely on 
student loan default rates
    <bullet>  Increase the amount of the maximum Pell Grant and direct 
the Department of Education to maintain the current formula for 
calculating eligibility so that hundreds of thousands of low-income 
young people will not be denied access to a higher education
    Workforce Investment Act (H.R. 27 & S. 9). Reauthorize the WIA 
youth title to serve as an effective transition support system for out-
of-school and extremely vulnerable youth. The WIA youth title already 
requires the provision of case management and follow-up for enrolled 
youth. Requiring an increased focus on youth who are out of school, 
homeless, or transitioning from foster care and the justice system can 
provide the necessary community infrastructure to facilitate their 
transition. Several other adjustments must be made to accommodate the 
complex needs of these youth:
    <bullet>  Retain the requirement for Youth Councils under WIA and 
encourage and enable the participation of the education and child 
welfare systems, runaway and homeless youth grantees, and the justice 
system in structuring the transition supports for vulnerable youth.
    <bullet>  Adjust the factors of the funding formula to ensure that 
the resources target communities with the greatest level of youth 
distress and promote increased expenditures per youth to reflect the 
need for more comprehensive education, training, and transition support
    <bullet>  Implement policies that facilitate the sharing of 
information on individual youth to enable better case management and 
outcomes tracking across systems
    <bullet>  Build on the capacity developed in communities that were 
part of the Youth Opportunities and the Young Offender demonstrations; 
use discretionary funding to sustain efforts in communities where 
successful systems innovation has occurred, which can serve as learning 
laboratories for the rest of the system
    <bullet>  Recalibrate performance measures to take into account the 
increased risk factors so that they don't serve as a disincentive to 
engaging the youth with greatest needs
    Temporary Assistance for Needy Families (HR 1160 & S. 667). 
Reauthorization provides the opportunity to refocus policy related to 
youth in TANF households, young parents on TANF, and TANF's role in 
positive youth development. Specific recommendations include:
    <bullet>  Make explicit to states that expenditures of TANF funds 
on programs that reconnect out-of-school youth to high quality 
education and training alternatives is in keeping with national 
priorities
    <bullet>  Encourage the connection of young parents to post-
secondary vocational training and remove the disincentives inherent in 
the definitions of work activity and the start of the TANF time clock
    <bullet>  For youth in TANF households who are drop-outs or at 
imminent risk of dropping out, require that the Individual 

Responsibility Plans identify specific steps to reconnecting them to 
education and training support
    Serious and Violent Offenders Reentry Initiative. The Second Chance 
Act of 2005 (H.R. 1704), introduced in the 109th Congress, would 
reauthorize the Serious Violent and Offenders Reentry Initiative. We 
encourage the Administration to support the following provisions 
already included in the Second Chance Act:
    <bullet>  Support the provision to reauthorize the juvenile 
offender reentry demonstration grant. With 100,000 youth exiting 
juvenile corrections facilities each year, it is critical to aid their 
successful reintegration into society through an array of services
    <bullet>  Support the provision that requires HHS to review the 
role of child protective services after arrest and establish services 
to preserve families
    <bullet>  Support the provisions authorizing mentoring grants to 
community-based organizations and the Federal Resource Center for 

Children of Prisoners
    The Carl D. Perkins Vocational and Technical Education Act (HR. 366 
& S. 250). In reauthorizing the Perkins Act, the Administration can 
urge Congress to maintain the federal commitment to strengthening 
secondary career and technical education opportunities. We recommend 
the following:
    <bullet>  Make career preparation and technical education available 
to all secondary school students, including those in alternative school 
environments
    <bullet>  Improve the integration of learning for academic 
excellence through the context of careers
    <bullet>  Expand strategies, such as work-based learning, 
experiential learning, internships, career exploration, etc. for youth 
going to postsecondary education or training or the workforce after 
high school
    <bullet>  Improve the rigor and quality of career and technical 
education by ensuring a link to academic standards
    <bullet>  Align career and technical education curriculum to post-
secondary entrance requirements

Expand youth opportunities to engage in community service and work 
        experience
    Teen employment is at its lowest rate since 1948. Economically 
distressed communities face serious challenges in their ability to 
offer young people the opportunities for gainful employment or civic 
engagement that are key to preparing them for a productive adulthood. 
The White House Task Force for Disadvantaged Youth (October 2003) 
recommended a youth service initiative that would allow older youth to 
``display leadership by providing opportunities for them to serve 
children living in high poverty areas of the United States.'' Such 
experiences enable youth to give back to their communities and develop 
civic pride and leadership skills. They also provide an avenue for 
communities to engage youth in the community building process. We 
applaud the Administration's expansion of AmeriCorps (administered by 
the Corporation for National and Community Service), and ask that the 
Administration increase its efforts to identify and support programs 
through AmeriCorps--such as Service and Conservation Corps and 
YouthBuild--that enroll youth who are low-income and/or out of school. 
In addition, much can be achieved by focusing the investment in Learn 
and Serve America on successful and innovative programs and promoting 
systemic change that leads to the infusion of service-learning 
throughout our nation's schools, colleges, and community-and faith-
based organizations.

Provide incentives and technical support to increase employer 
        participation in developing internships, pipelines and 
        intermediaries
    The high-paying jobs and careers of the future will require levels 
of education, skill, and technical competence that far exceed those 
typical of youth coming from distressed communities and school systems. 
These youth are the least likely to be exposed to exciting new career 
opportunities in science, medicine, the arts, and other professions. 
Expanding their horizons and aspirations can only be accomplished by 
engaging the corporate sector to help young people explore workplaces 
and understand the demands, rewards and prerequisites for entry. The 
Bush administration can assist in the following ways:
    <bullet>  Encourage federal contractors operating in distressed 
communities to engage with local intermediaries in providing 
internships and learning opportunities for disadvantaged youth
    <bullet>  Through grants and technical assistance, expand the 
capacity of local intermediaries to work with business, the community 
and school systems to create pipelines and work opportunities
    <bullet>  Support training and technical assistance to expand 
employers' capacity to better manage diversity, serve as mentors, and 
constructively engage in the process of preparing youth for success in 
the economy of the future
    The President has the opportunity to fulfill America's promise to 
the millions of youth who, with additional support, can make a 
significant contribution to our economic and social well-being. The 
undersigned organizations look forward to working with this 
Administration using our collective ability to Reach out and Reconnect 
our youth to a vibrant future of physical, emotional, and economic 
well-being.
                                 ______
                                 
    Chairman Tiberi. Thank you, and thanks for your real life 
examples as well. Let me try this again, Ms. Sallee.

 STATEMENT OF MARGUERITE SALLEE, PRESIDENT AND CEO, AMERICA'S 
        PROMISE--THE ALLIANCE FOR YOUTH, WASHINGTON, DC

    Ms. Sallee. Chairman Tiberi, Representative Davis, Members 
of the Committee, thank you for convening today's important 
hearing on the coordination of Federal youth programs.
    Mr. Davis, with ten brothers and sisters, maybe you could 
teach us a thing or two about coordinating activities and 
services.
    I represent the America's Promise Alliance, which is a 
growing group of businesses and non-profits, from the U.S. 
Chamber of Commerce to Big Brothers and Big Sisters, and lots 
more.
    We believe the promise of America should be available to 
every child, that every child should be able to realize their 
full potential, and too many today cannot.
    I think the Federal Government has an important 
responsibility and a role to play, especially for the 15 
million disadvantaged young people in our country today.
    Today, our nation is spending over $223 billion in Federal 
money across 339 youth serving programs with very little 
accountability and even less coordination.
    I would submit, Mr. Chairman, that our children are too 
important and our money is too scarce to allow this to 
continue.
    I come to you as someone who has dedicated my life to 
advancing the well being of children and youth. I have worked 
on children's issues both in government and in business for 30 
years.
    In state government, I was the Commissioner of the 
Department of Human Services in Tennessee. In the Federal 
Government, I was staff director for the Senate Subcommittee on 
Children and Families.
    I was CEO of a child care company and CEO of a company that 
served troubled youth. Today, I am president of America's 
Promise.
    I mention my background just to simply let you know that I 
have seen firsthand at the local, state and Federal levels the 
way Government programs work, but also the way they don't work.
    I have lived some of the frustrations and limitations of 
our well meaning array of services.
    Many good things, indeed, are happening. Along with the 
Federal Government and state governments and the good programs, 
we have community and faith based organizations, such as Boys 
and Girls Clubs, YMCA, Big Brothers, Big Sisters, Camp Fire 
USA, and many others.
    There are many Federal programs for children and youth that 
do provide invaluable services, but we are not having the 
impact that we must have.
    In spite of our efforts, we know that one-third of students 
do not graduate from high school. We know that the foster care 
system designed to protect half a million of our most 
vulnerable children is truly broken.
    We still have too many youth in our juvenile justice 
centers, too many using drugs, too many children having 
children. We know that over half of juveniles in detention have 
at least one psychiatric disorder, and far too many young 
people are killing each other or themselves, and 11 million 
children live below the poverty level and another 16 million 
live in families without basic needs, even with one income.
    In short, our children and youth in today's complex world 
face complex challenges. We know we must do a better job 
helping them reach their full potential, helping them realize 
the promise of America.
    How? I think we need to reverse the process. Children, 
these whole beautiful human beings should be the focus, not the 
myriad of programs. If you start with the child instead of the 
collection of programs, we might be able to figure out how best 
to serve them.
    Our children deserve more focused attention and with the 
expectation of measurable results.
    One thing that few of us could argue about is that young 
people and taxpayers would be better served if there were at 
least better coordination across programs.
    Representative Osborne and others have introduced 
legislation, the Federal Youth Coordination Act. This is a 
strong first step.
    Today, we have over 339 programs and the White House Task 
Force for Disadvantaged Youth identified those. Clearly, we 
have lots of programs doing lots of good things, but it is 
either a robust system or a complicated web with no way out.
    The reality is probably somewhere in between, and we can 
and must do better. The Federal Youth Coordination Act can help 
us get there.
    Currently, the Federal Government has no focal point for 
youth. We do not have a single entity responsible for setting 
policy and measurable goals for our precious youth, ensuring 
communication and coordination across agencies and holding 
agencies accountable for achieving results.
    H.R. 856 would change this, and would institutionalize this 
important focus.
    This administration is good with the robust domestic policy 
groups, but these efforts must be ensured of continuity. We 
can't count on a single Administration each time to figure this 
out.
    Government programs should add value, reduce costs, and 
improve outcomes. For children, we don't know if this is 
happening. It might come as a surprise that as a country, we 
actually lack a road map for helping young people reach their 
goals. We have no way of expecting coordination among agencies.
    The Federal Youth Development Council would develop this 
road map and for the first time, coordinate and 
institutionalize that coordination and focus on children.
    Coordination will not fix all of our problems, but it is 
certainly a good place to start, and it will build strategic 
bridges.
    We need to identify duplication, improve efficiency, 
streamline red tape, and best of all, focus on the kids.
    Thank you, Mr. Chairman, for co-sponsoring the Federal 
Youth Coordination Act. There are over 175 organizations 
throughout the country that believe this has a tremendous 
impact and great potential in the lives of children.
    Thank you again, Congressman Osborne, for your leadership 
on behalf of the nation's children and youth, and specifically 
for writing and introducing this important bill.
    As I close, I would like to recognize several organizations 
that have long sought a more strategic Federal youth policy, 
and they work daily and tirelessly to enrich the lives of young 
people, including the National Collaboration for Youth, Big 
Brothers, Big Sisters, Camp Fire USA, Communities in Schools, 
Child Welfare League of America, the Forum for Youth 
Investment, Girl Scouts of America, Volunteers of America, 
YMCA.
    Mr. Chairman and Members of the Committee, we need your 
leadership. The children need your leadership. Please do 
everything you can to enact the Federal Youth Coordination Act. 
You have the ability and the responsibility to act, to be a 
leader in the House and an example to the Senate.
    Our children are too important and our money is too scarce 
not to pass this legislation.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Marguerite Sallee follows:]

    Statement of Marguerite W. Sallee, President and CEO, America's 
            Promise--The Alliance for Youth, Washington, DC

    Chairman Tiberi, Representative Hinojosa, members of the Committee, 
thank you for convening today's hearing on the coordination of federal 
youth programs. I am honored to speak with you today on behalf of a 
growing alliance of businesses and nonprofit organizations, many of 
which are here today, on this important issue.
    I come to you as someone who has dedicated my life to advancing the 
well-being of children and youth, and has worked in and out of 
government and the corporate sector for thirty years. At the state 
level, I had the honor of serving as Commissioner of the Tennessee 
Department of Human Services after leading then-Governor Lamar 
Alexander's statewide ``Healthy Children Initiative.'' At the federal 
level, I had the pleasure of serving as Staff Director for the Senate 
Subcommittee on Children and Families. I am currently proud to serve as 
President and CEO of America's Promise--The Alliance for Youth, founded 
by General Colin Powell to strengthen the voice for young people 
throughout the country.
    I make reference to my background because I want you to know the 
different ways in which I have experienced government, and specifically 
how government serves our children. There are many federal programs for 
children and youth that provide invaluable services for our kids. Over 
1.2 million children have a safe place to go after school while their 
parents are working because of federal support for 21st Century 
Community Learning Centers. In 2004, nearly one million children in 
poverty received comprehensive services preparing them for school and 
life through Head Start. And President Bush plans to provide 100,000 
children of incarcerated parents with the love of a caring adult mentor 
through the Mentoring Children of Prisoners program, and we are well on 
our way towards achieving the president's goal.
    But despite all of the efforts of the federal government, combined 
with the efforts of state governments, community and faith based 
organizations such as Boys and Girls Clubs, YMCAs, Big Brothers Big 
Sisters, Camp Fire USA and countless others, we know that about one-
third of students do not graduate from high school; we know that there 
are more than 132,000 youth ages 15-19 in foster care who are going to 
``age-out'' of the system, many of whom will lack a diploma, health 
care, or even a place to live.\1\ And we know that there are over 
104,000 juveniles who are detained, incarcerated or placed in 
residential facilities, \2\ and President Bush's New Freedom Commission 
on Mental health reports that well over half juveniles in detention of 
at least one psychiatric disorder.\3\ In short, we know that children 
and youth still face multifaceted challenges, and we know we can do a 
better job of helping them to reach their full potential.
---------------------------------------------------------------------------
    \1\ According to national research, 55 percent of youth aging out 
of foster care will leave the system without a high school diploma, 44 
percent of them will have trouble obtaining health care, more than half 
of the young women will have given birth, and a quarter will be 
homeless. See Annie E. Casey Foundation (2004). Kids Count Data Book 
2004. Baltimore, MD: Annie E. Casey Foundation, 7-8. Available on-line 
at http://www.aecf.org/kidscount/databook/essay.htm.
    \2\ Ibid., 50.
    \3\ President's New Freedom Commission on Mental Health (2003). 
Achieving the Promise: Transforming Mental Health Care in America. 
President's New Freedom Commission on Mental Health. Washington, DC, 
32. Available on-line at www.mentalhealthcommission.gov.
---------------------------------------------------------------------------
    But how? In these halls of Congress, we debate the mechanics of 
various federal programs for youth, and rightfully so. Our children and 
youth deserve more attention. But one thing that few people can argue 
with, is that young people and taxpayers--would be better served if 
there were better coordination among federal youth programs. 
Representative Osborne has introduced legislation, the Federal Youth 
Coordination Act, that offers a strong first step toward a more 
efficient and effective response to the challenges facing disadvantaged 
youth.
    As you know, H.R. 856 was written to implement the recommendations 
of the White House Task Force for Disadvantaged Youth, convened by 
President Bush to develop a more comprehensive federal youth policy. 
The Task Force identified federal youth programs spread across 12 
Departments.\4\ It found 145 federal youth programs offering 11 or more 
services, \5\ and 112 programs serving 16 or more target 
populations.\6\ Clearly, we have numerous federal youth programs 
serving a multitude of youth populations with a variety of activities. 
This is either a robust system, or a complicated web. The reality is 
that it is probably somewhere in between. We can and must do better, 
and the Federal Youth Coordination Act will help to get us there.
---------------------------------------------------------------------------
    \4\ White House Task Force for Disadvantaged Youth (2003). The 
White House Task Force for Disadvantaged Youth Final Report. 
Washington, DC: White House Task Force for Disadvantaged Youth, 30. 
Available on-line at http://www.ncfy.com/whreport.htm.
    \5\ White House Task Force for Disadvantaged Youth (2003). 
Preliminary Report on Findings for the Federal Response to 
Disadvantaged Youth. Washington, DC: White House Task Force for 
Disadvantaged Youth, 25. Available on-line at http://www.ncfy.com/
whreport.htm.
    \6\ Ibid., 23.
---------------------------------------------------------------------------
    Currently, the federal government lacks a focal point for youth. We 
do not have a single entity responsible for setting policy and 
measurable goals for youth, ensuring communication and coordination 
across agencies, and holding agencies accountable for achieving 
results.
    H.R. 856 would change this by establishing the Federal Youth 
Development Council. This council would be composed of Department 
Secretaries and directed by Congress to improve communication among 
federal agencies serving similar or the same populations of youth. It 
would also assess the needs of youth and develop a comprehensive plan 
including quantifiable five-year goals and common indicators of youth 
well-being and assist agencies in coordinating their efforts to achieve 
results.
    Through its annual report to Congress, the council would compile a 
comprehensive review of federal research on youth well-being, making 
``what we know'' about youth and youth programs more transparent to 
Congress and the American people. This, in turn, would help Congress 
make more strategic decisions in the future. The report would also 
provide recommendations to Congress on ways to better integrate 
policies across agencies, particularly highlighting statutory barriers 
to effective coordination.
    And pending the availability of appropriations, the Council would 
provide assistance to States and localities to support State-level 
coordination efforts, giving priority to States that have already 
initiated interagency coordination focused on youth.
    If this bill only improved federal coordination, it would be a good 
thing. If this bill only improved state coordination, that would be a 
good thing too. But by doing both of these things together, the Federal 
Youth Coordination Act is uniquely valuable. It also sends an important 
message to States that they, in turn, should be connecting to city and 
county level collaborative efforts. In so doing, the federal government 
would provide leadership reinforcing work by the National Conference of 
State Legislators and the National Governors Association, both of which 
have recently launched efforts to support state youth collaboration.
    It might come as a surprise to you that, as a country, we lack a 
roadmap for helping young people reach the goals we hope they will 
achieve. We have no way of directing coordination among agencies that 
provide different services to the same populations of youth, so that 
individual funding streams are, in the words of the White House Task 
Force, ``integrated in ways that add value, reduce cost, and improve 
outcomes for disadvantaged youth.'' \7\ The Federal Youth Development 
Council will develop this roadmap, and for the first time, coordinate 
agency efforts toward a common destination.
---------------------------------------------------------------------------
    \7\ Ibid., 25.
---------------------------------------------------------------------------
    While some may question whether or not the council called for by 
this bill will truly be able to complete the Herculean task of 
integrating the work of federal agencies, we have every reason to 
believe the Federal Youth Coordination Act is a strong step in the 
right direction. The continued leadership of this Committee is vital 
for this to take place. By holding annual hearings, perhaps centered on 
the annual report to be provided by the council, this Committee will 
provide the extra accountability necessary to ensure success.
    The bottom line is this: coordination won't simply happen by 
telling agencies to coordinate. Federal agencies and staff, just like 
all of us in the youth serving arena, are rightfully busy implementing 
their own programs and strategies and have little time to ``come up for 
air'' and look at the broader picture. This notwithstanding, it is not 
okay that we allow children to age out of the foster care system 
without health care or even a place to live when government programs 
already provide both. And considering the existence of government 
funded mental health programs, it is questionable that we incarcerate 
juveniles with mental health problems but make little attempt to 
address this problem, let alone effectively integrating these youth 
back into the community.
    Coordination will not fix all of these and other problems, but 
especially during times where fiscal discipline guides decision making, 
improved coordination is a good place to start. To do this, we need 
Congress to empower a staffed entity whose full-time responsibility is 
building strategic bridges among federal agencies. We need it to 
identify duplication of federal efforts and areas for improved 
efficiency, and direct interagency efforts to streamline unnecessary 
red tape and produce better results for kids.
    The concept of enhancing federal coordination is not a new one. 
Congress has led much more intense efforts to address other national 
priorities, such as the establishment of the Office of National Drug 
Control Policy and the newly established National Intelligence 
Director. Just as our country needs a coordinated effort to combat 
drugs and keep us safe from terrorism, we need a comprehensive strategy 
to ensure that those who will lead our country have the resources to be 
the leaders we need them to be. While the Federal Youth Coordination 
Act does not go as far as these two reform efforts, it is nonetheless a 
strong and important step toward a federal youth policy that is 
comprehensive, coordinated, and accountable.
    I want to thank you, Mr. Chairman, for co-sponsoring the Federal 
Youth Coordination Act, as I and over 100 organizations throughout the 
country believe it has tremendous potential for improving the lives of 
children. I would also like to offer special thanks to Mr. Osborne for 
your leadership on behalf of the nation's children and youth, and 
specifically for writing and introducing this important bill. I also 
wish to recognize Representatives Ford, Hoekstra, Norwood, Payne and 
Peterson for their co-sponsorship. Finally, I would like to recognize a 
few of the organizations that have long sought a more strategic federal 
youth policy, and serve daily to enrich the lives of young people, 
including the National Collaboration for Youth, Big Brothers Big 
Sisters of America, Camp Fire USA, Communities in Schools, Child 
Welfare League of America, Forum for Youth Investment, Girl Scouts of 
America, Volunteers of America and YMCA of the USA. The work of faith 
and community based organizations such as these, as well as private 
foundations and generous corporations which have followed the federal 
government's lead by investing in collaborative efforts, leaves no 
doubt that the Federal Youth Coordination Act would leverage 
significant investments within the private sector.
    Many feel that Washington is an increasingly partisan city. But we 
know, and you demonstrate, that when it comes to the nation's children, 
leaders on both sides of the aisle come together for what's right for 
our country, and its future. I'd like to leave you with the words of 
Terri Harrak, a young woman who aged out of the foster care system. 
Terri said:
        I believe federal agencies are doing the best they can to 
        provide services for young people, but there is no 
        coordination. I would go to one place for healthcare, run to 
        another place for unemployment, go somewhere else for 
        education, run all around town and fill out all kinds of forms, 
        when one person just could have told me about all the programs 
        together. If I would've gone to get healthcare, or emergency 
        food stamps, at 18 years old, I didn't even know how to use 
        them and had no place to put them. If someone would've told me 
        about the federal transitional living program that was four 
        miles away from where I was living in the hospital, I could 
        have saved a year of homelessness.
    Mr. Chairman and members of the Committee, children like Terri need 
your leadership. Please act swiftly to enact the Federal Youth 
Coordination Act. We have made great strides in a number of areas, but 
there is still more to do. This Committee has the ability, and the 
responsibility, to act.
                                 ______
                                 
    Chairman Tiberi. Thank you. Dr. Steinberg?

 STATEMENT OF DR. LAURENCE STEINBERG, DISTINGUISHED UNIVERSITY 
 PROFESSOR, DIRECTOR, MacARTHUR FOUNDATION RESEARCH NETWORK ON 
ADOLESCENT DEVELOPMENT AND JUVENILE JUSTICE, TEMPLE UNIVERSITY, 
                        PHILADELPHIA, PA

    Dr. Steinberg. Thank you, Mr. Chairman, Members of the 
Subcommittee.
    I am a developmental psychologist who specializes in child 
and adolescent development, and I have done research on a 
variety of topics, including youth development and parent/child 
relationships for more than 30 years.
    I am here to urge your support of the Federal Youth 
Coordination Act, and I say this in light of what behavioral 
scientists like myself as well as policymakers and 
practitioners concerned with young people have learned about 
the mental health and educational, vocational, and social 
service needs of America's young people.
    The existing lack of coordination among programs for youth 
at the Federal, state and local levels is inefficient and 
costly, and as a consequence, many young people in need of 
services are not receiving them.
    The way in which we organize programs for young people and 
agencies that serve them reflects a view of teenagers and youth 
that partitions their lives into isolated categories, 
education, workforce development, now health, juvenile justice, 
family life, and the like.
    The boundaries between these domains with respect to 
funding streams and administrative structures are often 
entrenched in the way Government agencies are organized and 
funded, but in the real world, the boundaries between these 
different domains are very fuzzy and very fluid.
    As I am sure that most of you know, different problems that 
afflict adolescents often cluster together. Many young people 
with special education needs have tremendous family problems. 
Many young people who suffer long bouts of unemployment during 
the transition from school to work perhaps have substance abuse 
problems. Many young people with mental illness have spent many 
years in the foster care system, and so on.
    Yet, in many locales, individuals in the education, child 
welfare, foster care and mental health systems have little 
coordinated contact with one another, and nowhere is this more 
apparent than with respect to young people in the justice 
system, which is a group of adolescents that has been the focus 
of my work for the past decade.
    One of the studies that I co-direct is an ongoing 
prospective study of nearly 1,400 serious juvenile offenders in 
Arizona and Pennsylvania. This study is the largest and most 
comprehensive of its kind ever undertaken, and I am pleased to 
say this is funded mainly by the U.S. Department of Justice 
with additional support from the two states in which we are 
carrying out the research and several private foundations.
    Unlike most studies of juvenile offenders, ours is 
different in a very important way. We are not just interested 
in understanding their criminal behavior. We are interested in 
understanding their mental health, their psychological 
development, their education, their labor force participation, 
their family life, and the receipt of social services.
    Here is what we are learning. We know that young people who 
are in the justice system are there because they have violated 
the law, but our research shows that this population of young 
people can be defined by much more than their illegal or anti-
social behavior.
    A disproportionate number of them have had contact with the 
foster care system at some point in time. A disproportionate 
number of them have been abused or neglected. A 
disproportionate number of them have serious mental health 
problems. A disproportionate number of them have substance 
abuse or substance dependency.
    In other words, these kids whom we classify as juvenile 
offenders could just as easily be classified as special 
education students, victims of child abuse, individuals with 
mental illness, individuals with substance abuse problems, and 
so on.
    Because of the artificial way in which we classify them, 
the kids in the juvenile justice system often don't get the 
services that they need, and as a result of that, when they 
come out of a justice system, they are very likely to re-
offend.
    One of the things that we are seeing in the early years of 
the study is one of the best predictors of re-offending among 
kids coming out of the justice system, having a substance abuse 
problem.
    We can imagine how much better our justice system would 
work if what we did in that system was coordinated with what we 
did in the treatment of drugs and alcohol abuse.
    Our work suggests that in order to be able to respond to 
juvenile crimes, we need to look at the whole adolescent, and 
not just at the young person's anti-social behavior.
    I am confident that if you were to ask experts who 
specialize in education, workforce development, health care, 
mental health or foster care, you would receive a similar 
assessment.
    In closing, let me just say that I think America needs an 
over arching youth policy in order to promote positive 
development and to prevent problematic functioning during this 
critical period of life.
    I think the coordination of programs and services for young 
people is a very important step toward this goal, and the 
Federal Youth Coordination Act is a very important part of this 
process.
    Thank you very much.
    [The prepared statement of Dr. Laurence Steinberg follows:]

Statement of Dr. Laurence Steinberg, Distinguished University Professor 
   of Psychology, Director, MacArthur Foundation Research Network on 
    Adolescent Development and Juvenile Justice, Temple University, 
                            Philadelphia, PA

    I am the Distinguished University Professor of Psychology at Temple 
University in Philadelphia. I specialize in the study of psychological 
development during childhood and adolescence. I received my Ph.D. in 
Developmental Psychology from Cornell University and have held faculty 
positions at the University of California and the University of 
Wisconsin. I am a Fellow of the American Psychological Association, a 
former President of the Society for Research on Adolescence, and the 
President-Elect of the American Psychological Association's Division of 
Developmental Psychology. In addition, I am the Director of the John D. 
and Catherine T. MacArthur Foundation Research Network on Adolescent 
Development and Juvenile Justice. For the past ten years, our Network 
has been studying how our juvenile justice policies and practices 
should be informed by what we know about normal and abnormal adolescent 
development.
    I am here today to urge your support of the Federal Youth 
Coordination Act. I say this in light of what behavioral scientists 
like myself, as well as policy-makers and practitioners concerned with 
the development of American youth, have learned about the mental 
health, educational, vocational, and social service needs of our 
country's young people. The existing lack of coordination of programs 
for youth, at the federal, state, and local levels is inefficient and 
costly, and as a consequence, many young people in need of services are 
not receiving them.
    Currently, programs for youth are administered by a wide array of 
agencies, many of which do not communicate with one another. The 
organization of these agencies reflects a view of young people that 
partitions their lives into isolated categories--education, workforce 
development, mental health, juvenile justice, family life, and the 
like. Although the boundaries between these life domains with respect 
to funding streams and administrative structures are often entrenched 
in the ways in which governmental agencies are organized and funded, in 
the real world these boundaries are fuzzy and fluid. As I am sure you 
know, different problems that often afflict adolescents tend to cluster 
together. Many young people with special education needs have 
tremendous family problems. Many young people who suffer long bouts of 
unemployment during the transition from school to work also have 
substance abuse problems. Many young people who suffer from mental 
illness have spent years within the foster care system, and so on. And 
yet, in many locales, individuals in the education, child welfare, 
foster care, and mental health systems have little coordinated contact 
with one another.
    Nowhere is this overlap more apparent than with respect to young 
people in the justice system, a category of adolescents that has been 
the focus of my work for the past decade. One of our Network's major 
research activities is an ongoing prospective study of nearly 1,400 
serious juvenile offenders in Arizona and Pennsylvania. This study, the 
largest and most comprehensive of its kind ever undertaken, is funded 
mainly by the U.S. Department of Justice, with additional support from 
the two states in which the study is being carried out as well as 
several private foundations. Unlike most studies of juvenile offenders, 
which focus only on understanding the causes of individuals' criminal 
behavior, ours is examining the interconnections among antisocial 
behavior, psychological development, mental health, education, work, 
family life, substance use, and the receipt of social services.
    Young people who are in the justice system are there as a result of 
their violation of the law. But our research, as well as that conducted 
by other teams, shows that the population of juvenile offenders is 
defined by more than their illegal or antisocial behavior. A 
disproportionate number of juvenile offenders have had contact with the 
foster care system sometime during childhood. A disproportionate number 
have been abused or neglected. A disproportionate number require 
special education. A disproportionate number suffer from substance 
abuse or dependence. A disproportionate number have a mental illness 
such as depression, post-traumatic anxiety disorder, or bipolar 
illness. In other words, these young people, whom we classify as 
juvenile offenders, could just as easily be classified as special 
education students, victims of child abuse, alcoholics, or youngsters 
with affective disorder. Yet, because of artificial categorization 
based on funding streams and programs, we classify these adolescents as 
juvenile offenders, and not in some other, equally valid way, and 
because the juvenile justice, education, mental health and child 
welfare systems do not always coordinate their efforts, adolescents in 
the justice system often do not receive the full range of services that 
they need, either while they are in facilities or when they return to 
the community, during periods of aftercare. As a consequence, many 
juvenile offenders continue to commit crimes after they have been 
released from the justice system. In our ongoing study, for instance, 
we are finding that one of the best predictors of re-offending is 
having an alcohol or substance use disorder. To effectively help 
adolescents overcome challenges we need the programs and services 
available to them to be coordinated holistically, not categorically.
    Our work suggests that in order to understand how best to prevent 
and respond to juvenile crime, we need to look at the whole adolescent, 
and not just at that young person's antisocial behavior. I am confident 
that if you were to ask experts who work in the fields of education, 
workforce development, health care, mental health, or foster care, you 
would receive a similar assessment.
    America needs an overarching youth policy in order to promote 
positive development and prevent problematic functioning during this 
critical period of life. Requiring agencies that serve youth to work 
together toward the common goals that they all share--helping young 
people have a positive and successful adolescent experience and helping 
to ensure that they make a healthy and successful transition to 
adulthood--is a critically important element in the development of an 
overarching youth development policy. The Federal Youth Coordination 
Act is an important step in the right direction.
                                 ______
                                 
    Chairman Tiberi. Thank you. That was awesome. Thank you all 
for very, very good testimony.
    I am a proud sponsor of this bill and congratulate 
Congressman Osborne for bringing folks together to have this 
debate.
    I want to touch on an issue that my colleague from Ohio 
brought up. You all may have heard him bring it up to our 
previous witness, Dr. O'Grady, that being music.
    Let me put it in this context. Having grown up in a family 
where English was the second language when I was growing up, 
graduating from the second largest public school system in 
Ohio, first in my family to graduate from high school, eligible 
for the free and reduced lunch program when I was in high 
school, if it weren't for music for me, I can tell you that I 
would certainly not be here, but who knows where I would be if 
it weren't for that wonderful mentor/teacher and a music 
program that really got me interested more than other things I 
was involved in. I am still involved in music today.
    Taking Mr. Ryan's lead in his question earlier to Dr. 
O'Grady, how do we from a Federal policy standpoint maybe try 
to help youth who might come from difficult backgrounds get 
interested in music, sports, or other particular programs that 
might help them through adolescence?
    Ms. Sallee. One comment I would make is if we were really 
comprehensive in expecting every young person to have a good 
thing to do after school, after school activities including 
mentors, youth service opportunities.
    What do they do when they are not in school? We recently 
did a survey of 2,000 young people, and unfortunately, 75 
percent have nothing to do and surf the Internet. That is a 
great opportunity begging for a solution. They need mentors. 
They need music. They need sports. They need productive 
activities. They need volunteer opportunities.
    We need to take again a coordinated approach to this thing 
and make sure that every young person has something good to do 
after school.
    Dr. Steinberg. May I add to that, we now know from 
behavioral science research that the hours between 3 in the 
afternoon and 6 in the evening are the prime time for 
youngsters' experimentation with drugs and alcohol, precocious 
sexual activity, and delinquency.
    If we could occupy young people in the after school hours 
with these more productive activities that would help create a 
passion for something important in their lives, we could also 
prevent a lot of problem behavior at the same time.
    Mr. Moore. I would echo the thought particularly on 
developing positive opportunities for all kids throughout our 
nation.
    Kids who are already enmeshed in the system either through 
mental health or substance abuse or delinquency, the 
interventions that we provide to them also need to be looking 
at that person as someone who is growing and still developing, 
and we need to make sure they have those kinds of opportunities 
as well, and that would be in addition to the supervision and 
other kinds of interventions that are needed in those cases, if 
such exist.
    It is not just the prevention side that those things need 
to be brought to bear on the kids.
    Ms. Shubilla. I guess I would just add music spoke to you. 
Community service spoke to me. I think that part of what we 
want to create is opportunities to engage kids with things that 
are interesting to them, and for young people who have become 
particularly disengaged, it is the first way to get them back 
in the door and give them some success and some confidence that 
then helps them tackle some other issues in their life. I think 
it is very important.
    Chairman Tiberi. Good point. Thank you. Thank you all. Mr. 
Davis?
    Mr. Davis. Thank you, Mr. Chairman. I also want to thank 
you all for your testimony and your insights.
    Ms. Sallee, you indicated that it did not appear to you 
that we had a focal point or a focus on youth or our young 
people. Are you suggesting a separate agency or designation of 
something coming out of the Federal Government that just simply 
concentrates on the problems, needs, hopes and aspirations of 
young people?
    Ms. Sallee. Thank you. The purpose of the Federal Youth 
Coordination Act would actually set up a council, and that 
council would represent all these different agencies that are 
serving young people today, and the very act of having a 
council and asking them to have a plan and to have measurable 
goals and to hold these different programs accountable and call 
for an assessment of young people and their needs, there are 
some people who said will this create an unnecessary level of 
bureaucracy, but in point of fact, this coordination could 
eliminate a lot of bureaucracy and get better results and a 
better return for our precious investment of real Federal 
money.
    That would be, I think, the major thrust of this piece of 
legislation, to create this council that could become the focal 
point and have representation from the different groups and 
agencies.
    Mr. Davis. The council could really do it? I mean we have 
commissions and study groups and all kinds of groups.
    It seems to me that you are kind of moving toward an 
agency. I am thinking how programs come. Often times, one 
agency may very well not know what another agency is really 
doing.
    If you have put all of the activity in a place, then 
somebody knows you are dealing specifically with youth. That 
may be separate from dealing with education or dealing with 
health care.
    I guess there is some----
    Ms. Sallee. The representation from those different groups 
you listed would be at the table. The two good things about 
this Act is No. 1, it is over in 5 years. I like the sunset 
provision because it gives a sense of urgency. It says let's 
make a plan and let's institutionalize better coordination and 
better expectations.
    Second, it also has provisions for going down to the state 
level, which can then help really organize at the state and 
community level, and that is real services and real kids live.
    Mr. Davis. Dr. Steinberg, I really appreciate the intent 
and the focus of your study. It seems to me that what you found 
already, that we are on the right track with Representative 
Osborne's legislation.
    How can your study or the information help us to become 
more effective at determining what is working and what is not 
working, and what really helps us get to the end result?
    What is it that we are hoping is going to happen as a 
result of the activity in which we are engaged?
    Dr. Steinberg. Our study was designed to answer the very 
question that you are asking, that is what works for what kids 
under what circumstances.
    I think that in order to answer that question, we need to 
take this broad holistic view of children and understand the 
different kinds of social and emotional and behavioral needs 
that they have.
    Just as an aside, we have had a lot of difficulty getting 
other agencies to help support this research because it is seen 
as a juvenile justice study when in fact we are learning an 
awful lot about substance abuse and mental health and 
adolescent development and education and labor force 
participation.
    Currently, there is not an effective mechanism for bringing 
together different agencies to fund research that is going to 
inform the study of these issues in the kind of comprehensive 
way that we need.
    I am hoping that with provisions such as those outlined in 
the Act that Mr. Osborne has sponsored, it will not only help 
in the delivery of services and programs, but it will help us 
do a better job as a research community in evaluating and 
understanding the problems that kids have and what we need to 
do to address them.
    Mr. Davis. Thank you very much.
    Chairman Tiberi. Thank you. Mr. Osborne.
    Mr. Osborne. Thank you, Mr. Chairman. I would like to thank 
those of you on the panel for appearing here today.
    I would like to start with Ms. Sallee. I think you 
mentioned $223 billion spent on 125 programs or 150, whatever. 
That is a huge amount of money.
    I wondered if you had available quickly the comment in your 
testimony where you quoted the young lady was somewhat 
frustrated by her experience in the system? I have it here. I 
can read it for you if you don't have it accessible.
    Ms. Sallee. Yes, please.
    Mr. Osborne. Anyway, what you said is I'm sure the Federal 
agencies are doing the best they can, but there is no 
coordination. You have to go to one place for health care and 
run to another place for unemployment and somewhere else for 
education, and all around town, fill out all kinds of forms, 
and one person just told me about the programs together. If I 
would have gone to get health care or emergency food stamps, at 
18 years old, I don't even know how to use them and had no 
place to put them. If someone would have told me about the 
Federal transitional living program that was four miles away 
from where I was living in the hospital, I could have saved a 
year of homelessness.
    The reason I am asking this is you folks deal with people 
in real life situations and on the ground, so to speak.
    As we listened to Dr. O'Grady, and I think his testimony 
was excellent, we get the impression that things are really 
going pretty well, and as we listen to you folks, I don't have 
quite the same impression.
    There is a little disconnect here. I wondered--I will throw 
it open to any and all of you--where do you think the situation 
lies? Where does the rubber hit the road?
    I do not want to introduce legislation that is meaningless 
or duplicative and doesn't do any good.
    I guess in my experience, I ran a mentoring program with 
3,000 kids, and as I deal with young people, I don't think 
things are going all that well. I do see a lot of confusion, 
and most kids in foster care are dealing with at least four or 
five different agencies and it is very confusing. Unless they 
have a lot of help, they just simply can't negotiate the 
system.
    Anyway, would you flesh it out a little bit and what are 
the facts? Maybe you could say a little bit more on whether 
this is a good thing or a bad thing. What do you see happening 
on the ground with kids and young people?
    Ms. Sallee. I think all of us can reflect from our 
different perspectives the frustrations that we live and feel 
on behalf of young people we have tried to serve and help and 
their family members who can't negotiate the system and the 
different eligibility criteria and the different places you 
have to go just to put together the basic resources that you 
are trying to have to help your child or the family.
    Then the workers themselves get frustrated because there 
are artificial barriers through these silos of funding streams 
that come down.
    On behalf of the administration, I do think there has been 
an effort to introduce better coordinating vehicles, but I was 
suggesting in my summary testimony, we can't be dependent on 
one domestic policy advisor to work this through.
    What we are all asking for is that this notion of 
coordination on behalf of young people and better results for 
young people and a more holistic view of young people, that 
that be institutionalized through this council and through this 
Coordination Act, and then maybe we can have this window of 
time to really break through some of these silos and create 
some better coordination and get more efficient use of the 
money.
    If we had more efficient use of money, we could serve more 
kids. I think that's what we all are about, touching more 
lives.
    Ms. Shubilla. I would just add to that, on a local level, 
we have been grappling with a similar issue. We have a lot of 
good people in place across all of our agencies right now who 
are eager and willing to work together.
    How does that outlast the current leadership, the current 
political appointments that are in place to make sure this is 
institutionalized, so that every time there is new leadership, 
we are not starting all over again with our coordination 
efforts.
    I think at the end of the day, that is what is going to 
make the difference in terms of returns on investment and being 
able to cut administrative costs, since this is a long term 
institutionalized system and not just a short lived system.
    Mr. Moore. From a state perspective, I will remind you that 
I do believe that the real coordination has to happen at the 
case level, locally, but at the state level, a number of the 
efforts that are going on in the administration are working in 
the right direction. They are doing things that make sense and 
that are smart.
    The devil is in the details. By the time it gets down to 
the local community, sometimes it almost feels like a 
theoretical construct, what has happened at the Federal level.
    An example would be there are some programs where there 
have been some joint Federal agencies working together to 
develop a program for after care, re-entry of offenders, for 
example. Wonderful ideas. Wonderful things. They are doing 
well.
    The states are having to apply to a number of different 
agencies and fill out a number of different reports and deal 
with different Federal liaison, even though there are Federal 
agencies working together on a common project, there are still 
things that could be done to improve the coordination and the 
seamlessness of working together.
    At the state level, we have the same problem, trying to do 
that for our local communities.
    There is still work to be done.
    Mr. Osborne. I yield back, Mr. Chairman. Thank you.
    Chairman Tiberi. Thank you. Mr. Ryan.
    Mr. Ryan. Thank you. Ms. Sallee, I think you mentioned 
better coordination, the more efficient this is, the more money 
we could actually get down maybe to the case level and get 
actually help to these kids.
    In your estimation and maybe in Mr. Moore's as well, what 
kind of savings do you think we could extract from this $223 
billion? That is a lot of money for any of us to even try to 
comprehend. Percentages, numbers.
    Do you have any idea what money we would be able to save by 
coordinating this and actually pushing the money down to the 
kids?
    Ms. Sallee. I couldn't say because I think what you have to 
do is get everybody at the same table to say what can we do to 
serve these kids as holistic human beings, and let's see what 
happens.
    I also would caution that this is not so much about saving 
money. When you think about our children as our future and how 
much money should we be investing in those young people and in 
our future, and you look at the challenges facing us globally, 
this is a big amount of money, but it is not too much to be 
investing in our children and our future.
    I think what we are calling for as much as anything is 
better results for that money.
    I agree there could be some efficiencies and some of those 
dollars could then serve more young people, but I think it 
would be tough to hazard a guess until you got everybody at the 
table, because that is part of the problem, even this White 
House Task Force report didn't know where the overlaps and the 
duplications were when they tried to analyze this problem.
    We have to get the agencies at the Federal and state levels 
sitting at the same table to say how can we clear the clutter, 
get rid of the unnecessary paperwork, and take care of kids.
    Mr. Moore. I've been with state government for some time 
now, and I have seen lean times where budgets are cut 
tremendously and I have seen good times in terms of revenue.
    I didn't come here today to try to help understand or help 
describe how much money we could save or how much money we 
need. I came here today to talk about how whatever money there 
is available, we can do better things with it.
    Whatever money you give to the states, we are going to do 
as good as we can. Any additional help you can give us, other 
ways of coordinating and flexibility, so we can help local 
folks coordinate is what I think this discussion is about.
    Mr. Ryan. I appreciate that. I agree. I think regardless of 
what the savings may be here, which I think can be significant, 
I still think 50 percent graduation rates and all the 
statistics that you have said, we have to make greater 
investments.
    I think we owe an obligation to the taxpayer to make sure 
that this is invested properly and efficiently and everything 
else.
    I think you guys bring up some great points not only with 
youth development. Congressman Osborne, this is terrific. I 
hope this can be a model for what we do with health care and 
what we do with a lot of other things in Government, to look at 
this as a system.
    We do the same thing in the schools. We have junk food in 
the schools and candy and pop and everything else, and then we 
wonder why many years later these kids have certain diseases or 
are susceptible to certain diseases.
    I think this is a good opportunity for us to have this 
broader discussion. I thank you very much.
    One question for Dr. Steinberg. Maybe you can help us 
understand, too, and we talked about music, and the Chairman 
talked about music and the arts and they are what I think will 
end up being a great opportunity for all of us to figure out 
what the mental health and abused kids--I know a family that 
has three kids, all grew up in a terrible environment. Two are 
in sports. One is in speech, debate, drama and music.
    By far, the one who is in drama and music is much healthier 
emotionally than I think the others are.
    Why is that? Why are these studies coming out that music 
and music therapy and these kinds of things--why are the arts 
effective in this regard?
    Dr. Steinberg. I think it just may be the case for that 
family. Lots of kids do very well in athletic activities. 
Others don't connect with sports but connect more with music or 
art.
    I think the key point is that we need to provide 
opportunities for all kids to connect to something, and that is 
what is going to make a difference in keeping them healthy and 
helping them make a successful transition into adulthood.
    We don't fund music and arts as much as we ought to, and 
they are certainly not as well funded as athletic activities 
are, and that is a problem that we need to address.
    Mr. Ryan. Thank you. Mr. Chairman, I want to make it clear, 
I don't play a musical instrument. I don't sing. I don't dance. 
I don't do anything.
    I see a trend happening with kids who are provided with 
that opportunity and others who are not.
    I thank you very much. I think this is great. Mr. Osborne, 
thank you for doing this. This is wonderful.
    Mr. Chairman, thanks for having the hearing.
    Chairman Tiberi. Thank you, Mr. Ryan. So, it's not true 
about one of your colleagues from Ohio, what he says about you 
and your dancing?
    [Laughter.]
    Mr. Ryan. Not true.
    Chairman Tiberi. Not true? OK.
    Thank you, Mr. Osborne, for your leadership again. I want 
to thank the four of you for the time that you spent here 
today, the work that you are doing out in the field, your 
testimony. It was very helpful as we move forward.
    I want to thank the Members for their time and 
participation today, and if there is no further business before 
us today, the Subcommittee stands adjourned.
    [Whereupon, at 12:08 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
